   THE DRUG ENFORCEMENT
     ADMINISTRATION’S
CLANDESTINE DRUG LABORATORY
     CLEANUP PROGRAM

       U.S. Department of Justice
     Office of the Inspector General
              Audit Division

          Audit Report 10-29
              June 2010
      THE DRUG ENFORCEMENT ADMINISTRATION’S
   CLANDESTINE DRUG LABORATORY CLEANUP PROGRAM

                            EXECUTIVE SUMMARY

      Each year large quantities of illegal drugs are manufactured in the
United States in clandestine drug laboratories.1 Methamphetamine is the
synthetic drug most frequently produced in these clandestine laboratories.
According to the Drug Enforcement Administration (DEA), there were
6,783 clandestine drug laboratory incidents during calendar year 2008.2

      Due to the chemicals used to make the drugs and the wastes
generated during the “cooking,” clandestine laboratories present significant
safety and health risks to law enforcement and to the public. Clandestine
drug laboratories also present serious environmental concerns, such as soil
and ground water contamination. Many of these wastes are flammable,
corrosive, reactive, toxic, or explosive and can harm individuals if inhaled or
absorbed through the skin. In addition, drug manufacturers commonly
dump the hazardous waste chemicals into bathtubs, sinks, and toilets, as
well as on the ground, roads, and creeks surrounding the clandestine drug
laboratories. In some cases, surface and groundwater drinking supplies can
be contaminated from the waste.

        The DEA’s Clandestine Drug Laboratory Cleanup Program (Cleanup
Program) was established in 1989.3 The Cleanup Program focuses on the
removal and disposal of the chemicals, contaminated apparatus, and
equipment that can be used to manufacture illegal drugs. The DEA contracts
with vendors who have specialized training and equipment to remove the
waste from the clandestine drug laboratory sites seized by the DEA or by
state and local law enforcement agencies, and to transport the waste to an
EPA-regulated transportation, storage, and disposal facility (disposal
facility). Based on the quantities of hazardous waste produced, the majority
of DEA funded clandestine drug laboratory cleanups are exempt from EPA



       1
         Clandestine drugs such as stimulants, depressants, hallucinogens, and narcotics
are manufactured in these laboratories in violation of the Controlled Substance Act,
21 U.S.C. § 802 (1970).
       2
         Clandestine drug laboratory incidents include both clandestine drug laboratories
seized by law enforcement agencies as well as dumpsites discovered from past laboratories.
       3
         Prior to 1989 the DEA conducted clandestine drug laboratory cleanups under a less
structured process.
regulations.4 However, the DEA’s policy is to manage the hazardous waste
from all clandestine drug laboratories as if they were large enough in volume
to be subject to EPA regulations.

      Since the initiation of the Cleanup Program, the DEA has funded more
than 70,000 clandestine drug laboratory cleanups. As show in Chart 1, the
number of DEA funded cleanups increased from 446 laboratories in fiscal
year (FY) 1991 to 11,790 in FY 2005. However, the number of cleanups has
decreased significantly beginning in FY 2006.

                            CHART 1
       DEA FUNDED CLANDESTINE DRUG LABORATORY CLEANUPS
                        FYS 1991 – 2008

  14,000


                                                                                                      11,790
  12,000


                                                                                                  9,825
  10,000
                                                                                          8,631

   8,000                                                                          7,243
                                                                          6,390
   6,000
                                                                  4,505                                    4,744
                                                          3,846                                                            3,866
   4,000                                                                                                           3,405

                                                  1,923
   2,000                                  1,383
                                    738
           446 394 396 308 325
      0
           FY91 FY92 FY93 FY94 FY95 FY96 FY97 FY98 FY99 FY00 FY01 FY02 FY03 FY04 FY05 FY06 FY07 FY08

Source: Drug Enforcement Administration

      DEA officials attribute the decrease in recent years to the passage of
the Combat Methamphetamine Epidemic Act of 2005, which restricted the
availability of pseudoephedrine to methamphetamine manufacturers by


       4
        Clandestine drug laboratory sites that produce less than 100 kilograms of
hazardous waste, or less than 1 kilogram of acutely hazardous waste, are exempt from
most EPA regulations. 40 C.F.R. § 261.5 (1980).


                                                    - ii -
moving products containing pseudoephedrine behind pharmacy counters and
limiting the amount that could be purchased. 5

Prior Reports

       In August 1999, the Office of the Inspector General (OIG) issued an
audit report on the DEA’s hazardous waste cleanup and disposal, which
included an evaluation of the DEA’s use of the Assets Forfeiture Fund to pay
for clandestine drug laboratory cleanups. 6 This audit found that the DEA
was not adequately managing its cleanup program. Specifically, the audit
found 72 percent of the manifests were not signed by the vendor and
Certificates of Disposal were missing in 53 percent of the files reviewed. As
a result, the audit concluded that the DEA had no assurance that the
hazardous waste materials were removed from the cleanup site or disposed
of properly.

OIG Audit Approach

      The objectives of the audit were to: (1) determine whether the DEA
ensures that clandestine drug laboratory cleanups performed by its vendors
comply with applicable laws, regulations, guidelines, and contract
requirements; and (2) evaluate the DEA’s overall effectiveness in
administering and managing the Clandestine Drug Laboratory Cleanup
Program funding. The scope of the audit was generally from
FYs 2006 through 2008. However, we considered information outside this
period if it was relevant to the audit, and the instances in which we
considered such information are noted in the report.

      Our audit work was primarily conducted at DEA Headquarters, within
the Office of Forensic Sciences. 7 Our auditors interviewed the officials
responsible for the Cleanup Program, including those responsible for overall
administration, those within the Financial and Investigations Units, and a
Clandestine Laboratory Coordinator assigned to the field. The auditors also
reviewed all of the DEA’s prior inspections reports related to the Cleanup

       5
           21 U.S.C. § 830 (2006).
       6
         U.S. Department of Justice Office of the Inspector General, Drug Enforcement
Administration Hazardous Waste Cleanup and Disposal, Audit Report 99-24
(August 1999), 38.
       7
         The Office of Forensic Sciences manages the DEA’s Clandestine Drug Laboratory
Cleanup Program, as well as the DEA Laboratory System and the Digital Evidence
Laboratory. It also publishes the Microgram Bulletin, a monthly newsletter primarily
intended to assist and serve forensic scientists concerned with the detection and analyses of
suspected controlled substances for forensic and law enforcement purposes.


                                           - iii -
Program from FYs 2004 through 2009, as well as all previous complaint and
inquiry reports from FYs 2006 through 2008.

      We selected a sample of 606 cleanups from FYs 2006 through 2008,
and reviewed all related documentation to determine whether the DEA’s
Cleanup Program activities were conducted in accordance with applicable
laws, regulations, guidelines, and contract requirements. We also reviewed
the DEA’s management of its Cleanup Program funding. Appendix I contains
a more detailed description of our audit objectives, scope, and methodology.

Results in Brief

      We found that the DEA had significant problems in its Clandestine
Drug Laboratory Cleanup Program. However, the DEA implemented
additional controls during FY 2008 to seek to ensure that the hazardous
materials are accounted for and disposed properly. For example, the DEA
added a contract stipulation beginning with its FY 2008 contracts that
invoices will not be paid unless the vendor submits a Certificate of Disposal
with the final invoice. Additionally, the DEA issued a memorandum to all
cleanup vendors on December 31, 2007, stating that it will not pay the labor
costs associated with any personnel who performed cleanups who do not
have a proper Sensitive Access Level adjudication or who are not in the
process of obtaining one. However, we believe the DEA could further
strengthen its oversight of the Clandestine Drug Laboratory Cleanup
Program.

        As noted above, the DEA generally required vendors to obtain
Certificates of Disposal from an EPA-regulated disposal facility as verification
that hazardous waste materials were disposed of properly. In addition, the
EPA requires manifests that detail the quantity and types of hazardous
materials removed from clandestine drug laboratory sites and that document
the chain of custody of the hazardous materials from the time the waste is
removed from the site until it is delivered to an EPA-regulated disposal
facility.

      Yet, we found that for 28 cleanups in our sample (5 percent), the DEA
had not received Certificates of Disposal from the vendor. The DEA was able
to obtain 14 of the Certificates of Disposal from either the vendor or directly
from the EPA-regulated disposal facility used by the vendor. For 11 of the
remaining 14 cleanups, the vendor provided a final manifest documenting
that the waste was transported to an EPA-regulated disposal facility. We did
not identify any cleanups for which the vendor failed to provide Certificates
of Disposal for FYs 2007 or 2008.



                                     - iv -
       In addition, we found that for 52 cleanups in our sample (9 percent),
the final manifests were not provided. For 49 of the 52 cleanups
(94 percent) for which a final manifest was not provided, a Certificate of
Disposal prepared by an EPA-regulated disposal facility was obtained by the
DEA. However, we found that for three cleanups the DEA had not obtained a
Certificate of Disposal or a final manifest.

       Without a final manifest signed by an EPA-regulated disposal facility,
the DEA has no assurance that the hazardous materials were transported to
the disposal facility to be disposed of properly. Further, without a Certificate
of Disposal, the DEA has no assurance that the hazardous materials were
disposed of properly, rather than being diverted for use in the manufacture
of illegal drugs or contaminating the environment.

      The DEA requires that all vendor personnel performing clandestine
drug laboratory cleanups have a Sensitive Access Level adjudication to
decrease the potential for the diversion of hazardous waste materials for the
manufacture of illegal drugs. 8 We identified 25 vendor personnel who
performed cleanups who did not have a proper Sensitive Access Level
adjudication.

       The DEA has implemented several cost saving measures to reduce
cleanup costs. One such ongoing cost saving measure is that the DEA has
refined its cleanup vendor contracts and contract areas to allow more
businesses to compete for coverage of the contract area. The increased
competition among businesses has resulted in price reductions during the
contract bidding process. Additionally, the DEA’s Authorized Central Storage
Container Program has resulted in a cost savings of over $4.2 million during
FYs 2006 through 2008. The Authorized Central Storage Container Program
allows law enforcement officers to remove the hazardous materials from
small laboratories and temporarily store the chemicals in a safe and secure
location pending the final removal by a DEA vendor. By allowing the vendor
to pickup and remove the hazardous waste recovered from multiple sites at
one centralized location, the vendor’s labor costs for multiple cleanup sites is
reduced. This cost reduction has decreased the average cost per cleanup for
small laboratories in this program to less than $500.

      In our report, we make six recommendations to ensure that
clandestine drug laboratory cleanups performed by vendors comply with
applicable laws, regulations, guidelines, and contract requirements and to


       8
         Sensitive Access Level adjudication allows the individual access to DEA Sensitive
information, facilities, and systems only. It is not a security clearance.



                                           -v-
strengthen the DEA’s oversight of the Clandestine Drug Laboratory Cleanup
Program funding.

      Our report contains detailed information on the full results of our
review of the DEA’s Clandestine Drug Laboratory Cleanup Program. The
remaining sections of this Executive Summary discuss our audit findings in
more detail.

Review of Vendor Cleanups

       The DEA’s policy is to manage the hazardous waste materials from all
clandestine drug laboratories as if they were large enough in volume to be
subject to EPA regulations. 9 In doing so, the DEA attempts to minimize the
potential for the diversion of hazardous materials for the manufacture of
illegal drugs, as well as the health and environmental dangers associated
with this type of waste by ensuring that the waste is disposed of in
accordance with EPA and other federal, state, and local regulations. To
determine whether the DEA was meeting these requirements, we selected a
sample of 606 DEA cleanups performed from FYs 2006 through 2008 and
reviewed all relevant documentation relating to those cleanups.

DEA’s Perspective

       DEA officials attribute most of the concerns noted in our report to the
fact that during the majority of the period covered by our audit
(FYs 2006 through 2007) the two major cleanup contracts that covered most
of the United States were not renewed. In FY 2005, the DEA did not
exercise the option year for the hazardous waste disposal vendor responsible
for most of the cleanups in the western half of the United States due to poor
performance. According to DEA officials, the DEA became concerned about
the vendor’s performance after serious disclosures about the company’s
president were revealed during a routine background investigation. The DEA
referred the matter to the OIG for investigation. The OIG is working with a
United States Attorney’s Office to pursue civil remedies in this case.

      In FY 2006, another major hazardous waste cleanup vendor
responsible for most of the cleanups in the eastern half of the United States
could no longer perform the cleanup services for the rates awarded in its
contract because of financial difficulties. Therefore, the DEA had to rely on
emergency blanket purchase agreements and purchase orders to continue

      9
         Pursuant to 40 C.F.R. § 261.5 (1980), clandestine drug laboratory sites that
produce less than 100 kilograms of hazardous waste, or less than 1 kilogram of acutely
hazardous waste, are classified as a Conditionally Exempt Small Quantity Generator and are
exempt from most EPA regulations.


                                          - vi -
necessary cleanup services until new contracts were solicited and awarded in
FY 2008. According to DEA officials, the blanket purchase agreements and
purchase orders that were awarded on an emergency basis did not allow for
the same level of oversight by the DEA as was provided for in the contracts
awarded in FY 2008. For example, the DEA did not require Certificates of
Disposal and final manifests with the signature of the EPA-regulated disposal
facility for most of the cleanups performed under the emergency blanket
purchase agreements and purchase orders. We discuss this issue in more
detail in Finding I.

Certificates of Disposal Not Provided

       The DEA generally requires its cleanup vendors to submit Certificates
of Disposal issued by an EPA-regulated disposal facility as verification that
the hazardous waste was disposed of properly. At the initiation of our audit,
the DEA provided a list of 1,747 cleanups between 2004 and 2008 for which
Certificates of Disposal had not been provided by the vendor. The vendor
currently under investigation by the OIG was responsible for
1,132 (65 percent) of the 1,747 Certificates of Disposal that were not
provided to the DEA. To resolve this issue, the DEA has been contacting the
EPA-regulated disposal facilities directly to obtain Certificates of Disposal
that were not provided by the cleanup vendors. The DEA has also worked
with the vendors in an effort to get other legal assurance that the hazardous
waste was disposed of properly and not diverted for the manufacture of
illegal drugs or illegally dumped in a manner harmful to the environment.
Since March 2009, the DEA has obtained 555 (32 percent) of the
1,747 Certificates of Disposal. Of the remaining 1,192 Certificates of
Disposal 1,132 (95 percent) were related to cleanups performed by the
vendor currently under investigation by the OIG.

      During our review, we also identified 28 cleanups in our sample
(5 percent) for which the DEA had not received Certificates of Disposal from
the vendor. Subsequent to our review, the DEA was able to obtain one of
the Certificates of Disposal from the cleanup vendor. The DEA was able to
obtain another 13 Certificates of Disposal directly from the EPA-regulated
disposal facility related to cleanups performed by the vendor whose contract
was not renewed in FY 2006 because of its financial difficulties. As a result,
we found that Certificates of Disposal were not obtained for a total of 14
cleanups in our sample. Without Certificates of Disposal, the DEA has no
assurance the hazardous waste materials were disposed of properly.

      For 11 of the 14 cleanups, Certificates of Disposal were not required by
the DEA in the blanket purchase agreements or purchase orders, which
contradicts the DEA’s Cleanup Program policy of treating the waste from all


                                    - vii -
cleanups as if it were subject to EPA regulations. DEA officials stated that
vendor requirements were reduced in order to obtain emergency blanket
purchase agreements and purchase orders after the loss of its two major
vendors in FYs 2005 and 2006.

      For the remaining 3 of the 14 cleanups, Certificates of Disposal were
required by the contract with the vendor but were not provided. The vendor
currently under investigation by the OIG was responsible for all three of
these cleanups.

      To ensure Certificates of Disposal are submitted for current and future
hazardous waste cleanups, the DEA added a requirement in its clandestine
drug laboratory cleanup contracts in FY 2008 that the vendor’s invoice will
not be paid until a Certificate of Disposal is submitted by the vendor. We did
not identify any cleanups for which the vendor failed to provide Certificates
of Disposal for FYs 2007 or 2008.

Manifests Not Provided

       EPA Regulation 40 C.F.R. § 262 (1980) requires a final manifest signed
by the EPA-regulated disposal facility for regulated waste that details the
quantity and types of hazardous materials removed from the clandestine
drug laboratory site. An initial manifest is signed by the law enforcement
agency that seized the clandestine drug laboratory (generating agency),
verifying that the vendor removed all the hazardous waste listed. The final
manifest is signed by an EPA-regulated disposal facility, verifying the
hazardous materials seized at the site were received for disposal.

     During our review, we identified one cleanup in our sample
(0.2 percent) for which the vendor currently under investigation by the OIG
did not provide either the initial or final manifest. A Certificate of Disposal
was also not provided for this cleanup. As a result, there is no
documentation supporting the quantity and types of hazardous materials
removed from the clandestine drug laboratory site or that the waste was
disposed of properly.

      We also identified 51 cleanups in our sample (8 percent) for which the
vendor provided an initial manifest but did not provide a final manifest
signed by the EPA-regulated disposal facility. Specifically, we found the
following:

   •   For 35 of the 51 cleanups (69 percent) a Certificate of Disposal was
       provided. As a result, for these cleanups the DEA has assurance that
       waste removed from the cleanup site was transported to an


                                    - viii -
      EPA-regulated disposal facility and that the waste was disposed of
      properly. According to DEA officials, prior to the FY 2008 generation of
      contracts, vendors were only required to provide the initial manifest
      because Certificates of Disposal were generally required for all
      cleanups. The DEA did not believe that the final manifest was
      necessary because the initial manifest documented the types and
      quantities of waste removed from the cleanup site and the Certificate
      of Disposal documented that the waste was disposed of properly by an
      EPA-regulated disposal facility.

  •   For 14 of the 51 cleanups (27 percent) the DEA was able to obtain the
      final manifests directly from the EPA-regulated disposal facility.
      Certificates of Disposal were also obtained directly from the
      EPA-regulated disposal facility for these cleanups. As a result, the DEA
      now has assurance that the waste was received by an EPA-regulated
      disposal facility and disposed of properly.

  •   For the remaining 2 of the 51 cleanups (4 percent) a Certificate of
      Disposal was also not provided by the vendor. As a result, for these
      cleanups, there is no evidence that the vendor transported the waste
      to an EPA-regulated disposal facility or that the waste was disposed of
      properly. It should be noted that the vendor currently under
      investigation by the OIG was responsible for both cleanups for which
      the final manifest and Certificate of Disposal were not provided.

Missing or Undocumented Sensitive Access Level Adjudication

      To reduce the risk of diversion of the hazardous waste materials to
unauthorized locations or personnel, the DEA requires that all vendor
personnel who perform clandestine drug laboratory cleanups obtain a proper
Sensitive Access Level adjudication. The DEA issued a memorandum to all
cleanup vendors on December 31, 2007, stating that it will not pay the labor
costs associated with any personnel who performed cleanups without having
a proper Sensitive Access Level adjudication, or were not in the process of
obtaining one. We examined the Sensitive Access Level adjudications for a
sample of 161 vendor personnel who performed cleanups. We identified
25 vendor personnel (16 percent) who did not have a proper Sensitive
Access Level adjudication. Allowing vendor personnel without a proper
Sensitive Access Level adjudication to perform clandestine drug laboratory
cleanups increases the potential for diversion of the hazardous waste
materials for the manufacture of illegal drugs. The DEA paid the labor costs
for 23 of the 25 vendor personnel who did not have a proper Sensitive
Access Level adjudication. However, the cleanups for these 23 individuals



                                    - ix -
occurred prior to December 31, 2007. As a result, there are no questioned
costs associated with this finding.

Conflicting Time Requirements

        We also noted a separate issue related to Certificates of Disposal
resulting from conflicting EPA regulations and DEA requirements. Current
EPA regulations require that disposal facilities dispose of the hazardous
waste materials received from vendors within 1 year. However, starting
with the FY 2008 hazardous waste removal and disposal contracts, the DEA
requires vendors to submit all final paperwork and the final invoice within
6 months of the cleanup. Vendors often cannot obtain Certificates of
Disposal to submit within the DEA’s 6 month contract deadline. Accordingly,
the final invoice cannot be submitted timely. DEA officials stated that DEA
specifically required its vendors to provide Certificates of Disposal within
6 months rather than the 1-year period allotted to the EPA-regulated
disposal facilities to ensure that its vendors use disposal facilities that are
willing to commit to dispose of the waste quickly. Contracting separately
with the EPA-regulated disposal facilities would provide an additional
incentive for the disposal facilities to provide the Certificate of Disposal to
the DEA timely, as it would not receive payment until the Certificate of
Disposal was submitted. Currently the DEA contracts only with the
hazardous waste removal companies, and not the EPA-regulated disposal
facilities. We recommend that the DEA consider contracting separately with
the EPA-regulated disposal facilities to ensure that the disposal vendors are
using EPA-regulated disposal facilities and that the waste is disposed of
timely.

Other Matters Related to Vendor Cleanups

      We also identified the following instances of non-compliance.

Certificates of Disposal and Manifests Did Not Match

       During our review, we compared the types and quantities of the
hazardous waste materials listed on the manifests to the Certificates of
Disposal, to ensure that all hazardous waste materials removed from the site
were accounted for and disposed of by the disposal facility. We identified
two cleanups (0.3 percent) for which the quantity of hazardous materials
seized from the laboratories listed on the manifest did not match the
Certificates of Disposal provided by the EPA-regulated disposal facility. 10


      10
           Neither of these two cleanups occurred during FY 2008.


                                           -x-
Adequate Number of Personnel in Cleanup Crew

      Only vendor personnel who have received Occupational Safety and
Health Administration (OSHA), Resource Conservation and Recovery Act,
and U.S. Department of Transportation (DOT) training are permitted to
perform cleanup services. The DEA’s contracts and blanket purchase
agreements generally require each team that performs cleanups to include
at least two properly trained individuals to perform the hazardous waste
removal services. However, we identified seven cleanups (1 percent) for
which the cleanup was performed by only one individual, in violation of the
contract and blanket purchase agreement.

Incorrect Generator

      When a state or local law enforcement agency seizes a clandestine
drug laboratory, the state or local agency becomes, according to EPA
regulations, the “generator” of the hazardous waste, even if the seizing
agency requests the DEA’s assistance in removing the hazardous waste from
the clandestine drug laboratory site.11 The generator is responsible for
ensuring compliance with applicable federal laws and regulations.12 It is
important that the manifest lists the correct generator of the hazardous
waste because the generator is ultimately legally responsible for ensuring
that the hazardous waste materials are disposed of properly.

       We noted 27 cleanups (4 percent) in which the manifests incorrectly
listed the DEA as the generator of the hazardous waste rather than the state
or local law enforcement agency that made the seizure.13 We also noted
three cleanups (0.5 percent) in which the manifests did not list a generator,
three cleanups (0.5 percent) in which the manifests incorrectly listed the
generator as an unknown drug laboratory, and two cleanups (0.3 percent) in
which the manifests incorrectly listed the generator of the hazardous waste
as the vendor.


       11
           The EPA Regulation 40 C.F.R. § 260.10 (1980), defines the generator of a site’s
hazardous waste as the agency that “first caused the waste to be subject to regulation.” As
a result, the act of a law enforcement agency seizing a clandestine drug laboratory causes
any hazardous chemical to be subject to regulation, and therefore, the law enforcement
agency becomes the generator of the chemicals seized at the site.
       12
          Applicable federal laws and regulations include the: (1) Resource Conservation
and Recovery Act; (2) Comprehensive Environmental Response, Compensation and Liability
Act; (3) Hazardous Materials Transportation Act; and (4) Occupational Safety and Health
Act.
       13
            We also noted two cleanups for which the generator listed was illegible.


                                             - xi -
Cleanups Costs

      We also examined the average cost per cleanup since the inception of
the Cleanup Program. The average cost per cleanup has been reduced over
the past 2 years, from $3,600 in FY 2007 to $2,200 in FY 2009. The
decrease in cost per cleanup appears to have resulted from the various
contract modifications and improvements implemented by the DEA. One
such cost saving measure is that the DEA continuously refines the
geographic areas covered by its contracts. Smaller contract areas allow
more businesses to compete for coverage of the contract area. The
increased competition among businesses to win contracts has resulted in
price reductions during the contract bidding process.

       In addition, the DEA initiated the Authorized Central Storage Container
Program, implemented in FY 2004, which allows state and local law
enforcement officers to perform the removal of chemicals from small
laboratories, and to temporarily store the chemicals in a safe and secure
location pending final removal by a DEA vendor. By allowing the vendor to
pickup and remove the hazardous waste recovered from multiple sites at
one centralized location, the vendor’s labor costs for multiple cleanup sites is
reduced. This cost reduction has decreased the average cost per cleanup for
small laboratories in this program to less than $500, compared to average
costs per cleanup of $3,000 to $3,600 for FYs 2006 through 2008. This has
resulted in cost savings of over $4.2 million, which is in addition to the
savings from the decreasing average cost per cleanup.

Recommendations

      In this report, we make six recommendations to strengthen the DEA’s
oversight of the Clandestine Drug Laboratory Cleanup Program. We
recommend that the DEA:

   •   ensure that final manifests are submitted with vendor invoices and
       that invoices are not paid until a final manifest is received;

   •   ensure that all final manifests are compared with Certificates of
       Disposal to determine if all hazardous waste materials were disposed
       of properly;

   •   ensure that vendor cleanup personnel have the required Sensitive
       Access Level adjudication or are in the process of obtaining one before
       being allowed to perform the hazardous waste cleanup services and
       that the labor costs are not paid for personnel performing cleanups
       without required Sensitive Access Level adjudications;


                                     - xii -
•   ensure that cleanups are performed by a minimum of two properly
    trained vendor personnel;

•   ensure that vendors list the correct generators on the manifests; and

•   analyze the option of contracting separately with the EPA-regulated
    disposal facilities in order to resolve the conflicting time requirements
    for vendor submission of final invoices and disposal facility submission
    of Certificates of Disposal.




                                  - xiii -
        THE DRUG ENFORCEMENT ADMINISTRATION’S
     CLANDESTINE DRUG LABORATORY CLEANUP PROGRAM


                                 TABLE OF CONTENTS


INTRODUCTION ................................................................................ 1

     DEA’s Clandestine Drug Laboratory Cleanup Program ...................4

        Cleanup Program Funding .............................................................8
        Cleanup Program Requirements ...................................................12
        Cleanup Program Management ....................................................14
        DEA Inspections .........................................................................15

     Prior Reports ...............................................................................17

     OIG Audit Approach.....................................................................17

FINDINGS AND RECOMMENDATIONS.............................................. 19

I.    DEA OVERSIGHT OF VENDOR PERFORMANCE ........................... 19

     Vendor Duties..............................................................................19

     Review of Vendor Performance ...................................................20

        Certificates of Disposal Not Provided .............................................22
        Manifests Not Provided................................................................24
        Missing or Undocumented Sensitive Access Level Adjudication .........26
        Conflicting Time Requirements .....................................................28
        DEA’s Perspective.......................................................................29
     Other Matters Related to Vendor Cleanups……………………………..30
        Certificates of Disposal and Manifests Did Not Match.......................30
        Adequate Number of Personnel in Cleanup Crew ............................30
        Incorrect Generator ....................................................................31

     Other Data Related to Vendor Performance .................................31
      Waste Not Transported to the Disposal Facility Timely.....................32
      Invoice Approvals .......................................................................34
      Cost Estimates Compared To Final Invoice Amounts .......................34
      Final Certificate of Disposal Date within 1 Year ...............................34

   Recommendations .......................................................................35

II. PROGRAM MANAGEMENT FUNDING .......................................... 36

   Hazardous Waste Cleanup and Disposal Contracts ......................36

   Cleanup Costs ..............................................................................37

   Authorized Central Storage Container Program ...........................39

   Conclusion ...................................................................................40

STATEMENT ON INTERNAL CONTROLS ............................................ 43

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ...... 45

APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY ............... 47

APPENDIX II - THE DRUG ENFORCEMENT ADMINISTRATION'S
   RESPONSE TO THE DRAFT REPORT .......................................... 51

APPENDIX III - ANALYSIS AND SUMMARY OF ACTIONS
   NECESSARY TO CLOSE THE REPORT ......................................... 55
                                     INTRODUCTION

       Each year, large quantities of illegal drugs, such as stimulants,
depressants, hallucinogens, and narcotics, are manufactured in clandestine
laboratories in violation of the Controlled Substance Act. 1 Methamphetamine
is the synthetic drug most frequently produced in these clandestine
laboratories.

        According to the Drug Enforcement Administration (DEA), there were
6,783 clandestine drug laboratory incidents during calendar year 2008.2
Due to the chemicals used to make the drugs and the wastes generated
during the “cooking,” clandestine laboratories pose significant safety and
health risks to law enforcement and to the public. The production of illegal
drugs in clandestine drug laboratories creates dangerous waste, a minimum
of six times the amount of the finished product produced. Many of these
wastes are flammable, corrosive, reactive, toxic, or explosive. The
chemicals and wastes left behind can harm unsuspecting or careless
individuals if inhaled or absorbed through the skin. Health effects can be
either acute (short term) or chronic (long term). Burns, rashes, and
irritation can result from contact while headaches, nausea, and dizziness are
common following inhalation. During a clandestine drug laboratory seizure,
law enforcement personnel may also be exposed to irritants, corrosives, and
chemicals that are explosive or flammable. Law enforcement personnel, as
well as the public, may also face exposure from chemicals stored at off-site
locations, such as rental lockers. The lack of proper ventilation and
temperature controls at these off-site locations adds to the potential for fire,
explosion, and human exposure.

       Clandestine drug laboratories also present serious environmental
concerns, such as soil and ground water contamination. The raw materials
and by-products of the illegal drug manufacturing process are often disposed
of indiscriminately by the drug dealing manufacturer to avoid detection.
Producers of illegal drugs commonly dump hazardous waste chemicals into
bathtubs, sinks, and toilets, as well as on the ground, roads, and creeks
surrounding the clandestine drug laboratories. In some cases,
contamination spreads off-site. Surface and groundwater drinking supplies
could be contaminated, potentially affecting the public.



       1
           21 U.S.C. § 802 (1970).
       2
          Clandestine drug laboratory incidents include both clandestine drug laboratories
seized by law enforcement agencies, as well as dumpsites discovered from past
laboratories.


                                            -1-
      A list of chemicals typically found at clandestine drug laboratory sites,
along with the specific hazards which could result from exposure, is outlined
below in Table 1.

                                TABLE 1
                     CHEMICALS COMMONLY FOUND AT
                  CLANDESTINE DRUG LABORATORY SITES


                 CHEMICAL                      HAZARDS FROM CHEMICAL
       Acetic anhydride             Irritant, corrosive

       Anhydrous ammonia            Rapid asphyxia

       Benzene                      Blood disorders, carcinogen

       Chloroform                   Disorientation, unconsciousness, carcinogen

       Cyclohexane                  Irritant

       Hydrogen cyanide             Rapid asphyxia

       Hydrochloric acid            Irritant, corrosive

       Hydriodic acid               Irritant, corrosive

       Hypophosphorus acid          Corrosive

       Lead acetate                 Blood disorders

       Lithium aluminum hydride     Water reactive, explosive

       Mercury chloride             Irritant, corrosive

       Methylamine                  Corrosive

       Petroleum ether              Disorientation, unconsciousness

       Phenylacetic acid            Irritant

       Pierdine                     Corrosive

       Red phosphorus               Reactive, explosive

       Safrole                      Carcinogen

       Sodium (metal)               Water reactive, corrosive

       Sodium hydroxide             Corrosive

       Thionyl chloride             Water reactive, corrosive

     Source: Drug Enforcement Administration

      Clandestine drug laboratories range from crude makeshift operations
to highly sophisticated facilities, some of which are mobile. Clandestine drug


                                        -2-
laboratories can be found anywhere, including in private residences, motel
and hotel rooms, apartments, house trailers, mobile homes, campgrounds,
and commercial establishments. Laboratories are often hidden in remote
areas and may contain sophisticated surveillance equipment. The DEA
reports that some laboratories have been rigged to prevent intruders and
law enforcement from entering and to destroy any evidence in the event
that the facility is discovered.

      In 1980, the U.S. Environmental Protection Agency (EPA) published
the Standards for Generators of Hazardous Waste as part of the regulations
required by the Resource Conservation and Recovery Act.3 This regulation
defines the generator of a site’s hazardous waste as the agency that “first
caused the waste to be subject to regulation.” As a result, the act of a law
enforcement agency seizing a clandestine drug laboratory causes any
hazardous chemical to be subject to regulation, and therefore the law
enforcement agency becomes the generator of the chemicals seized at the
site. As a result, once a law enforcement agency seizes a clandestine drug
laboratory, the law enforcement agency is required to ensure the hazardous
waste is removed and disposed of safely and properly in accordance with
EPA regulations.4 However, most clandestine drug laboratories generate
smaller amounts of waste than the quantities that trigger most of the EPA’s
hazardous waste regulations.5

      Significant events impacting the regulation of clandestine drug
laboratory cleanups are outlined in Table 2.




       3
         The Resource Conservation and Recovery Act is found at CITE, while the Standards
for Generators of Hazardous Waste is found at 40 C.F.R. § 260.10 (1980).
       4
         The seizing law enforcement agency is only responsible for removing and disposing
of the hazardous waste. It is not responsible for ensuring that the property is safe or
habitable.
       5
          40 C.F.R. § 261.5 (1980) states that clandestine drug laboratory sites producing
less than 100 kilograms of hazardous waste, or less than 1 kilogram of acutely hazardous
waste, are classified as a Conditionally Exempt Small Quantity Generator and are exempt
from most EPA regulations.


                                           -3-
                                   TABLE 2
                    TIMELINE OF SIGNIFICANT CLANDESTINE
                      DRUG LABORATORY CLEANUP EVENTS


   YEAR                                           EVENT
                •    Anti-Drug Abuse Act passed establishing the Joint Federal Task Force,
   1988
                     which is comprised of the DEA, EPA, and the U.S. Coast Guard.6

                •    Joint Federal Task Force directed to formulate a program for cleaning
   1988              up and disposing of hazardous waste produced by clandestine drug
                     laboratories.

                •    Memorandum from Acting Associate Attorney General directed that
                     only evidentiary samples, photographs, and videos should be
   1989
                     maintained from seized clandestine drug laboratories. The remainder
                     of the hazardous chemicals were required to be destroyed.

                •    Joint DEA and EPA letter to the President established that law
                     enforcement’s clandestine drug laboratory cleanup responsibilities
                     were complete upon: (1) removal of the evidence, chemicals, and
   1989
                     contaminated apparatus; (2) posting of a notice at the site; and
                     (3) written notification to the property owner, health department, and
                     environmental agency.

                •    The Joint Federal Task Force published the Guidelines for the Cleanup
                     of Clandestine Drug Laboratories (Red Book) providing guidance and
   1990
                     recommendations for agencies that are responsible for clandestine
                     drug laboratory cleanups.

   2005         •   Red Book updated by the Joint Federal Task Force.

Source: Drug Enforcement Administration

DEA’s Clandestine Drug Laboratory Cleanup Program

      In 1988, the DEA established the Hazardous Waste Disposal Unit in the
Office of Forensic Sciences to assist DEA Special Agents in the management
of the chemicals, waste, and contaminated equipment seized at clandestine
drug laboratories. The DEA’s Clandestine Drug Laboratory Cleanup Program
(Cleanup Program) was established in 1989 under the Hazardous Waste
Disposal Unit.7 In fiscal year (FY) 1998, the DEA began funding cleanups of
clandestine drug laboratories that were seized by state and local law
enforcement agencies.

      6
          21 U.S.C. § 862 (1988).
      7
         Prior to 1989 the DEA conducted clandestine drug laboratory cleanups under a less
structured process.


                                            -4-
       The DEA’s Cleanup Program focuses on the removal and disposal of
the chemicals, contaminated apparatus, and equipment used to manufacture
illegal drugs. The Cleanup Program also provides training for the DEA’s field
offices and for state and local law enforcement agencies. In the Cleanup
Program, the DEA uses vendors with specialized training and equipment to
provide waste removal and disposal services on behalf of the DEA and state
and local law enforcement agencies. The DEA establishes agreements with
vendors through contracts, blanket purchase agreements, and purchase
orders.

       Since the initiation of the Cleanup Program, the DEA has funded
vendors to conduct more than 70,000 clandestine drug laboratory cleanups.
As show in Chart 1, the number of DEA funded cleanups has increased from
446 laboratories in FY 1991 to 11,790 in FY 2005. However, the number of
cleanups decreased significantly beginning in FY 2006. Since FY 2003,
approximately 95 percent of the vendor cleanups funded by the DEA were
for state and local seizures.




                                    -5-
                            CHART 1
       DEA FUNDED CLANDESTINE DRUG LABORATORY CLEANUPS
                        FYS 1991 – 2008

  14,000


                                                                                                      11,790
  12,000


                                                                                                  9,825
  10,000
                                                                                          8,631

   8,000                                                                          7,243
                                                                          6,390
   6,000
                                                                  4,505                                    4,744
                                                          3,846                                                            3,866
   4,000                                                                                                           3,405

                                                  1,923
   2,000                                  1,383
                                    738
            446 394 396 308 325
      0
           FY91 FY92 FY93 FY94 FY95 FY96 FY97 FY98 FY99 FY00 FY01 FY02 FY03 FY04 FY05 FY06 FY07 FY08

Source: Drug Enforcement Administration

      DEA officials attribute the decrease in cleanups since FY 2005 to the
passage of the Combat Methamphetamine Epidemic Act of 2005, which
imposed significant restrictions on the sale of pseudoephedrine to
methamphetamine manufacturers. 8 This act required that products
containing pseudoephedrine be sold from behind pharmacy counters and
limited the amount that could be purchased.

       In FY 2008, DEA officials reported a 14 percent increase in clandestine
drug laboratory cleanups, from 3,405 in FY 2007 to 3,866 in FY 2008. DEA
officials attribute the increase to “smurfing,” which refers to purchasing
small amounts of pseudoephedrine at multiple stores. In addition, the DEA
attributes the increase to the poor economy because some states that
previously funded most of their own laboratory cleanups are now turning to
the DEA for assistance.


       8
           21 U.S.C. § 830 (2006).


                                                    -6-
      This increased number of DEA-funded cleanups, however, does not
necessarily indicate that the number of clandestine drug laboratories in the
United States is increasing. The distribution of the DEA-funded clandestine
drug laboratory cleanups varies greatly throughout the United States, with
13 states accounting for 80 percent of the DEA-funded clandestine drug
laboratory cleanups in FY 2008. The 13 states are shaded in green in
Chart 2.

                          CHART 2
      DEA FUNDED CLANDESTINE DRUG LABORATORY CLEANUPS
                          FY 20089




Source: Drug Enforcement Administration

      The number of cleanups shown in Chart 2 reflects only those cleanups
funded by the DEA and does not include the cleanups funded through state
and local agencies. Some of the states shaded in gray may have had a
greater number of cleanups than those shaded in green. For example,


      9
          States without numbers indicate there were no DEA funded cleanups in FY 2008.


                                          -7-
Missouri is one of several states that uses state funds for most of its drug
laboratory cleanups and only requests the DEA’s assistance for large
cleanups. Thus, during calendar year 2008, Missouri accounted for
22 percent of all methamphetamine laboratories in the United States, but
only 1 percent of the DEA-funded clandestine drug laboratory cleanups.
Similarly, California accounted for 5 percent of all methamphetamine
laboratories in the United States during calendar year 2008, but only
0.3 percent of the DEA-funded cleanups for FY 2008. Generally, the DEA
had been able to fund all cleanup requests received from state and local law
enforcement agencies. The only period of time the DEA was unable to fund
state and local clandestine methamphetamine laboratory cleanups was from
March through June 2000, because the DEA did not receive any funding from
the Office of Community Oriented Policing Services (COPS) for FY 2000. In
June of 2000 the DEA received additional Department of Justice (DOJ) funds
for the Cleanup Program and resumed funding state and local cleanups.

      As shown in Chart 2, the numbers of clandestine drug laboratory
seizures and cleanups differ greatly among areas within the United States.
The DEA has difficulties obtaining vendors to perform cleanups in areas that
have little clandestine drug laboratory activity because the low cleanup
volume is not worth the cost to vendors. As a result, the DEA utilizes
blanket purchase agreements and purchase orders to cover these areas,
ensuring the entire United States has coverage. The DEA uses contracts to
provide long-term coverage of a contract area, giving one vendor the
responsibility to perform clandestine drug laboratory cleanups for a specific
contract area. Blanket purchase agreements are used to provide short-term
coverage to a contract area, typically when a contractor is no longer able to
perform its duties and the DEA needs another vendor to temporarily provide
coverage until a new contract can be awarded, or when the number of
cleanups in a contract area is so unprofitable that no contractor bids for the
contract area. 10 Blanket purchase agreements are generally awarded to
multiple vendors within the contract area to ensure continuous coverage.
The DEA is required to utilize the blanket purchase agreements in these
areas on a rotating basis; as a result, the vendor may not have the lowest
costs for a specific cleanup.

Cleanup Program Funding

      From the inception of the Cleanup Program in 1989 through 1997, DEA
clandestine drug laboratory cleanups were funded solely from the Assets

       10
          Contract areas are unprofitable for states with a relatively small number of
cleanups. For example, during the last round of contract solicitations in FY 2008, no
contractors bid to cover the states of Alaska, Hawaii, Idaho, Kansas, Montana, Nevada,
North Dakota, and South Dakota.


                                           -8-
Forfeiture Fund.11 However, Assets Forfeiture Funds can only be used to
fund cleanups of clandestine drug laboratories seized by the DEA.12

       In 1998, under the authorization of the Violent Crime Control and Law
Enforcement Act of 1994, Congress established the Methamphetamine
Initiative within DOJ and assigned responsibility for administering the
program to COPS. 13 Table 3 below shows the amount of COPS funding
provided to the DEA from FYs 1998 to 2009 to fund clandestine drug
laboratory cleanups seized by state and local law enforcement.




      11
          The Assets Forfeiture Fund receives the proceeds of the Assets Forfeiture
Program, which removes the proceeds of crime and other assets relied upon by criminals
and their associates to perpetuate their criminal activities.
      12
           28 U.S.C. § 524(c) (2002).
      13
            The primary purposes of the Methamphetamine Initiative are to combat the
production, distribution, and use of methamphetamine by issuing grant funding to state and
local law enforcement agencies for training and equipment, and to reimburse the DEA for
the proper removal and disposal of hazardous materials from clandestine methamphetamine
laboratories. The U.S. Department of Justice Office of the Inspector General, issued an
audit report, The Office of Community Oriented Policing Services Methamphetamine
Initiative, Audit Report 06-16 (March 2006), 52; addressing COPS methamphetamine grant
funds, and not the funds provided to the DEA for clandestine methamphetamine laboratory
cleanups.


                                          -9-
                                  TABLE 3
                     TIMELINE OF COPS FUNDING EVENTS


            YEARS                                       EVENT
                               The DEA did not receive any COPS funding for clandestine
   FY 2000                                               14
                               drug laboratory cleanups.

                               The DEA received additional DOJ funds for the Cleanup
   June 2000
                               Program and resumed funding state and local cleanups.

                               The DEA received COPS funding of $20 million each fiscal
   FYs 2001 - 2008                                                    15
                               year to fund state and local cleanups.

                               The DEA received $5 million in COPS funding for the
   FY 2009
                               Cleanup Program.

Source: Drug Enforcement Administration

       In 1999 the DEA also began receiving appropriated funds from
Congress to fund clandestine drug laboratory cleanups, in addition to the
COPS funding it received for this purpose. The amount of appropriated
funds the DEA received from 1999 to 2008 has varied, ranging from
$4 million in FY 1999 to $1 million in FY 2003. The appropriated funds
designated for clandestine drug laboratory cleanups provided the DEA some
flexibility in what it could provide for support of state, local, and other DEA
efforts, because Assets Forfeiture Funds can only be used for DEA initiated
cleanups, and COPS funding can only be used for methamphetamine
laboratory cleanups.

       The amount the DEA spends annually on the Cleanup Program when
all three funding sources are considered has fluctuated from year to year, as
shown in Table 4. From FYs 2006 through 2008, the Cleanup Program
received funding totaling $51.4 million, as shown in Table 4.




       14
          From mid-March to mid-June 2000, the Cleanup Program was suspended and
could not provide cleanups for state and local law enforcement agencies because the DEA
did not receive any COPS funding in FY 2000.
       15
          In FY 2008 the Cleanup Program carried an excess balance in COPS funding; as a
result $13.2 million was reprogrammed by DOJ. DEA officials attribute the excess balance
of COPS funding to the decrease of the average cost of cleanups, as well as the decrease of
clandestine drug laboratories due to the Combat Methamphetamine Epidemic Act of 2005,
21 U.S.C. § 830 (2006).


                                          - 10 -
                      TABLE 4
CLANDESTINE DRUG LABORATORY CLEANUP EXPENDITURES
          FYs 2006-2008 (DOLLARS IN MILLIONS) 16

       FUND SOURCES          FY 2006        FY 2007        FY 2008        TOTALS
 COPS Funds                  $ 15.74        $ 13.19     $ 13.64      $ 42.58
 Appropriated Funds              2.93            2.07        2.59          7.59
 Assets Forfeiture Funds         0.57            0.26        0.41          1.25
 Totals                      $19.24          $15.53        $16.65     $51.41
Source: Drug Enforcement Administration

                           CHART 3
          SOURCE OF CLANDESTINE DRUG LABORATORY
                     CLEANUP FUNDING
                       FYS 2006 – 2008

                                                                Asset
                                                             Forfeiture
                                                             $1,245,057
                                                                 2%
                        Appropriated
                         $7,589,018
                            15%




                                                COPS
                                             $42,576,506
                                                 83%




     Source: Drug Enforcement Administration




16
     Throughout this report, differences in the total amounts are due to rounding.


                                        - 11 -
Cleanup Program Requirements

       Since FY 2003, approximately 95 percent of the vendor cleanups
funded by the DEA have been for state and local seizures. The DEA has
developed a specific protocol for utilizing vendors for cleanup services. For
state and locally initiated cleanups, law enforcement personnel must contact
the designated Clandestine Laboratory Coordinator (Coordinator) at the local
DEA field office. The Coordinator gathers basic information about the
clandestine drug laboratory including the address, size and scope of the
cleanup, law enforcement officers on-site, and law enforcement agencies
that initiated the seizure and cleanup. Based on the information provided by
the state or local law enforcement agency, the Coordinator or the
DEA-designated duty agent decides whether to seek funding authorization
from DEA headquarters as a state or local cleanup or to adopt the case as a
DEA case.17 In some instances the Coordinator may determine that a state
or local seizure was not a clandestine drug laboratory, in which case the DEA
will not fund the cleanup. Clandestine drug laboratory seizures initiated by
the DEA are automatically classified as a DEA case.

      Once the decision is made to seek funding as a state or local cleanup
or to adopt the case as a DEA case, the Coordinator then contacts DEA
headquarters to obtain funding authorization and a control number, as well
as the information for the vendor handling cleanups for that region. For
state and local cleanups, the Coordinator relays this information to the state
or local law enforcement officers at the site. Once the information has been
provided, the state or local law enforcement officers call the vendor for
cleanup services.18

      DEA Special Agents are required to report seizure data within 48 hours
to the El Paso Intelligence Center (EPIC). State and local law enforcement
agencies are required to complete the appropriate EPIC and National
Clandestine Laboratory Cleanup Program forms to ensure that accurate
seizure data is collected. 19 The forms require specific information regarding

       17
           The decision to adopt a case is based on multiple factors, such as whether the
seizure is part of an ongoing DEA investigation, the type and size of the laboratory, and the
Special Agent workload.
       18
          State and local law enforcement officers provide security for the DEA vendor
personnel for the entire period of time the vendor is on-site. The DEA has authorized
vendors to leave a site and all the related waste behind if proper site security is not
provided by the state or local law enforcement agency.
       19
         EPIC is a southwest border intelligence center, run jointly by the DEA and U.S.
Customs and Border Protection.



                                           - 12 -
the clandestine drug laboratory; suspects; affected persons, such as children
who may have been exposed to the laboratory’s hazardous waste; items
that have been present at the site, such as weapons, drugs, and chemicals;
cleanup vendor information; and other investigative information.

      These forms help identify the scope, the national clandestine drug
problem, and any changes in trends. The forms also help in assessing the
quality of the work performed by the DEA’s vendors. In addition, the forms
are also useful in assessing the need for cleanup resources, and information
from the EPIC database and the DEA are used in appropriation and policy
decisions regarding the Cleanup Program.

      The materials seized at a clandestine drug laboratory site become
waste when law enforcement officials make the determination of what to
keep as evidence. Those items not required as evidence or for analysis are
considered hazardous waste and must be disposed of safely and
appropriately. In the disposal process, waste may need to be stored under
appropriate temporary conditions in order to allow time to arrange for proper
disposal.

      Most clandestine drug laboratories generate such sufficiently small
amounts of waste that they are exempt from most of the EPA’s hazardous
waste regulations.20 However, the DEA’s policy is to require its vendors to
follow EPA regulations related to the removal, storage, and disposal of the
waste, even if the amount of waste is small enough to be exempt from the
hazardous waste regulations.

      The DEA has established contract provisions that require waste to be
treated and disposed of in a manner that is consistent with the waste’s
characteristics and the most cost effective to the government. The three
most common disposal methods are incineration, fuel blending, and
neutralization. The majority of hazardous waste materials are disposed of
through incineration. Fuel blending combines flammable materials with
other fuel for use in the incinerator. 21 Only materials that can be identified
as safe to use in fuel blending are utilized. Neutralization is the mixing of an


       20
          Pursuant to 40 C.F.R. § 261.5 (1980), clandestine drug laboratory sites that
produce less than 100 kilograms of hazardous waste, or less than 1 kilogram of acutely
hazardous waste, are classified as a Conditionally Exempt Small Quantity Generator and are
exempt from most EPA regulations.
       21
           Flammable hazardous materials that are blended with the fuels used for
incineration are only used by EPA-regulated disposal facilities for the purpose of incinerating
other hazardous materials.



                                            - 13 -
acidic or basic substance with water to bring the pH level closer to the
neutral pH level of 7.22

Cleanup Program Management

      Initially, the Cleanup Program was managed by the DEA Hazardous
Waste Disposal Unit. A hazardous waste specialist and environmental
scientist were both employed within the Cleanup Program to ensure
compliance with hazardous waste regulations and laws. However, as the
number of cleanups increased over the years, Environmental Protection
Specialists were used by the DEA to serve as inspectors in the field, and also
as contract specialists to provide oversight for the various vendor cleanup
companies working for the DEA across the United States. All of the
Environmental Protection Specialists have backgrounds in environmental
law, specializing in hazardous waste. As a result of the increasing number of
cleanups, in FY 2000 the DEA Hazardous Waste Disposal Unit was
reorganized into the DEA Hazardous Waste Section to ensure that the
various hazardous waste disposal companies working for the DEA handle the
toxic material from clandestine laboratory sites in a manner compliant with
federal, state, and local environmental rules and regulations and in
accordance with contract requirements.

        The DEA’s Financial Unit within Office of Forensic Sciences, Hazardous
Waste Section, is responsible for monitoring all documentation related to the
cleanups. This unit is also responsible for ensuring that the hazardous waste
was disposed of by an EPA-regulated transportation, storage, and disposal
facility (disposal facility), and for examining all invoices for accuracy before
payment is made.

      Since FY 1998, the Hazardous Waste Disposal Section has used an
electronic database called HAZARDs to track clandestine drug laboratory
cleanup information, manage invoice data, and track hazardous waste
manifest data from the clandestine laboratory cleanups. Beginning in
FY 2002, HAZARDs allowed invoices to be electronically submitted by
vendors and paid by the DEA. This procedure was intended to help reduce
the large number of hours that had previously been spent on data entry and
to reduce the amount of data entry errors. However, due to the loss of two
hazardous waste vendors in FYs 2005 and 2006, as discussed in Finding I,
the electronic submission and processing of invoices reverted to hard copy
submission of paperwork for blanket purchase agreements and purchase



       22
          Acidic substances have a pH of less than 7, basic substances have a pH of greater
than 7, and a neutral substance has a pH level of exactly 7.


                                          - 14 -
orders. With the new FY 2008 generation of contracts in place, the
transition has been made back to electronic submissions.

DEA Inspections

      The DEA Office of Inspections conducts internal compliance inspections
of the DEA, including the Office of Forensic Sciences. These inspections
have authority to review compliance with every aspect of the DEA’s Office of
Forensic Sciences. Previous inspections have included reviews of various
areas, from physical security of personnel and equipment to financial
management.

      Additionally, the DEA’s Hazardous Waste Disposal Section, Inspections
Unit (Inspections Unit), has six Environmental Protection Specialist positions
to conduct scheduled and unscheduled inspections and reviews of vendors. 23
According to DEA officials, each vendor with a blanket purchase agreement
or contract must be inspected, at a minimum, once every 3 years. These
inspections examine vendor sites to review whether:

   •   the vendors possess the proper equipment to perform hazardous
       waste cleanups;

   •   the facilities possess adequate physical security and storage measures
       to temporarily store the hazardous waste from cleanups before being
       taken to an EPA-regulated disposal facility;

   •   the vendors have the necessary equipment and personnel to handle
       multiple cleanups occurring at the same time;

   •   the vendors have a site safety plan in the event of a hazardous waste
       spill as required by the Resource Conservation and Recovery Act;24
       and




       23
           The Environmental Protection Specialists have environmental law backgrounds
and hazardous waste knowledge and expertise. They provide technical guidance to the
contracting office, vendors in the field, the DEA field offices, and report to the DEA Internal
Affairs chief counsel or the EPA as necessary. They draft solicitations and contracts, serve
on technical evaluation panels for new vendors, monitor requirements to deter fraud, and
train state and local officers at the DEA training facility at Quantico, Virginia.
       24
            42 U.S.C. § 6901 (1976).


                                            - 15 -
   •   vendor personnel who perform cleanups possess all required training
       to perform hazardous waste cleanups. 25

      The inspections team also participates in the post-award conference
with the vendors. 26

      Starting in 2006, the Inspections Unit began to maintain and monitor a
complaint database for vendor misconduct and complaints against law
enforcement personnel from the vendors. During FYs 2006 through 2008,
the Inspections Unit received 15 complaints of vendor misconduct, which
represents 0.1 percent of all cleanups. The Inspections Unit investigates all
complaints and requires corrective actions when appropriate. The
complaints included:

   •   vendor personnel who perform cleanups arriving at the clandestine
       drug laboratory without the necessary equipment to perform the
       cleanup, and

   •   lengthy response times for the vendor personnel who perform
       cleanups to arrive at the clandestine drug laboratory.

Common remedies for complaints include:

   •   disallowing the vendor to perform future hazardous waste cleanup for
       the DEA;

   •   employees responsible for the misconduct no longer being employed
       by the vendor;

   •   the Inspections Unit performing inspections of the vendors to verify
       their compliance with regulations; and

   •   vendors re-issuing policy to its employees to ensure the employees are
       aware of the requirements for hazardous waste site cleanups.



       25
           The required training includes: (1) 40 hours of hazardous waste management
training; (2) 40 hours of Occupational Health and Safety Administration (OSHA) training;
(3) 8 hours of Resource Conservation and Recovery Act training; (4) 4 hours of U.S.
Department of Transportation training; and (5) 4 hours of training in hazardous waste
reporting under the Comprehensive Environmental Response, Compensation and Liability
Act and on the DEA hazardous waste cleanup contract process.
       26
          Post award conferences are standard contract meetings held following the award
of a contract to discuss applicable information pertaining to the contract.


                                          - 16 -
Prior Reports

       In August 1999, the Office of the Inspector General (OIG) issued an
audit report on the DEA’s hazardous waste cleanup and disposal that
included an evaluation of the DEA’s use of the Assets Forfeiture Fund to pay
for clandestine drug laboratory cleanups. 27 The audit found that the DEA
was not adequately managing its Cleanup Program. Specifically, the audit
found 72 percent of the manifests were not signed by the vendor and
Certificates of Disposal were missing in 53 percent of the files reviewed. As
a result, the DEA had no assurance that the hazardous waste materials were
removed from the cleanup site or disposed of properly.

OIG Audit Approach

      Based on the frequency and magnitude of prior findings related to
contract administration and hazardous waste cleanups, we conducted an
audit of the DEA’s Clandestine Drug Laboratory Cleanup Program. The scope
of the audit was generally from FYs 2006 through 2008. However, we
considered information outside this period if it was relevant to the audit, and
the instances in which we considered such information are noted in the
report. The objectives of our audit were to:

   •   determine whether the DEA ensures that clandestine drug laboratory
       cleanups performed by its vendors comply with applicable laws,
       regulations, guidelines and contract requirements; and

   • evaluate the DEA’s overall effectiveness in administering and
       managing the Clandestine Drug Laboratory Cleanup Program funding.




       27
          U.S. Department of Justice Office of the Inspector General, Drug Enforcement
Administration Hazardous Waste Cleanup and Disposal, Audit Report 99-24
(August 1999), 38.


                                         - 17 -
This page intentionally left blank.




            - 18 -
                 FINDINGS AND RECOMMENDATIONS

I.   DEA OVERSIGHT OF VENDOR PERFORMANCE

     We found that the DEA had significant problems in its
     Clandestine Drug Laboratory Cleanup Program. The DEA
     implemented additional controls during FY 2008 to seek to
     ensure that the hazardous materials are accounted for and
     disposed properly. However, we believe the DEA could further
     strengthen its oversight of the Clandestine Drug Laboratory
     Cleanup Program.

     In our review, we examined a sample of 606 Clandestine
     Laboratory cleanups and found that in 28 cleanups in our sample
     (5 percent), the vendor did not provide the DEA with Certificates
     of Disposal. In 52 cleanups in our sample (9 percent), the
     vendor did not provide the final manifest. For 49 of the
     52 cleanups (94 percent) for which a final manifest was not
     provided, a Certificate of Disposal prepared by an EPA-regulated
     disposal facility was obtained by the DEA. However, we found
     that for three cleanups the DEA had not obtained a Certificate of
     Disposal or a final manifest. As a result, in these cases the DEA
     has no assurance that the waste was disposed of properly for
     these cleanups. We also identified 25 vendor personnel who
     performed cleanups and did not have a proper Sensitive Access
     Level adjudication at the time the cleanup services were
     provided. As a result, we make six recommendations to
     strengthen the DEA’s oversight of the Clandestine Drug
     Laboratory Cleanup Program.

Vendor Duties

       The DEA contracts with vendors who have specialized training and
equipment to remove the waste from the clandestine drug laboratory sites
seized by the DEA or by state and local law enforcement agencies, and to
transport the waste to an EPA-regulated disposal facility. Clandestine drug
laboratory sites that produce less than 100 kilograms of hazardous waste, or
less than 1 kilogram of acutely hazardous waste, are exempt from most EPA
regulations.28 Based on this criteria, the majority of DEA funded clandestine
drug laboratory cleanups are exempt from EPA regulations. However, the
DEA’s policy is to manage the hazardous waste from all clandestine drug


     28
          40 C.F.R. § 261.5 (1980).


                                      - 19 -
laboratories as if they were large enough in volume to be subject to EPA
regulations concerning disposal because it:

   •   allows for the tracking of the waste, thereby reducing the potential for
       diversion of the material to be used again in the manufacture of illegal
       drugs;

   •   ensures the health and safety of personnel on-site and those
       transporting the waste to an Authorized Central Storage site or to an
       authorized disposal facility;

   •   ensures safe disposal of unknown materials at the laboratories that
       cannot be readily identified;

   •   provides that wastes are identified as hazardous in case of an
       emergency during transport;

   •   ensures containers at the site that may be contaminated from the drug
       production process are managed properly;

   •   requires disposal facilities to provide Certificates of Disposal for all
       items removed from the site, which serves as the DEA’s verification
       that the hazardous waste materials were disposed of properly; and

   •   minimizes the amount of exempt hazardous waste from being placed
       in landfills that do not have the degree of environmental protection
       required of a permitted hazardous waste facility.

Review of Vendor Performance

      In FY 2005, the DEA chose not to renew the contract for one of its
hazardous waste vendors due to poor performance of the vendor. This left
most of the western half of the United States without a contractor to cover
removal of hazardous waste. According to DEA officials, the DEA became
concerned about the vendor’s performance after disclosures about the
company’s president were revealed during a routine background
investigation. As a result, the DEA referred its concerns about this vendor to
the OIG. The OIG Investigations Division is currently working with a United
States Attorney’s Office to pursue civil remedies against the contractor.

      Additionally, in FY 2006 another major hazardous waste cleanup
vendor began having financial problems and could no longer perform the
cleanup services for the rates awarded in its contract. The contractor’s bid
was based on the large volume of cleanups at the time the contract was


                                      - 20 -
awarded. However, with the passage of the Combat Methamphetamine
Epidemic Act of 2005, the number of clandestine drug laboratories decreased
by 60 percent in FY 2006.29 As a result, since the vendor’s bid was
dependent on a large number of clandestine drug laboratories cleanups, it
could no longer profitably perform the cleanups and did not accept the DEA’s
offer to exercise the option year under the contract. This left most of the
eastern half of the United States without contract coverage.

      After the loss of its two major cleanup vendors, the DEA had to rely on
emergency blanket purchase agreements and purchase orders to continue
the needed cleanup services until new contracts were solicited and awarded
in FY 2008. According to DEA officials, the blanket purchase agreements
and purchase orders that were awarded on an emergency basis did not allow
for the same level of oversight as the contracts awarded in FY 2008. For
example, the DEA did not require Certificates of Disposal and final manifests
with the signature of the EPA-regulated disposal facility for most of the
cleanups performed under the emergency blanket purchase agreements and
purchase orders. DEA officials attribute most of the deficiencies noted in our
report to the fact that during the majority of the period covered by our audit
(FYs 2006 through 2007) the cleanups were performed under emergency
blanket purchase agreements and purchase orders.

       During FYs 2006 through 2008, the DEA established agreements with
47 vendors using contracts, blanket purchase agreements, and purchase
orders. We reviewed a sample of 606 DEA cleanups performed by vendors
from FYs 2006 through 2008 to determine whether: (1) Certificates of
Disposal were submitted timely to verify the hazardous materials were
properly disposed, (2) manifests were submitted and signed to verify the
quantity and types of hazardous materials removed from the clandestine
drug laboratory site, (3) vendor personnel possessed a proper Sensitive
Access Level adjudication as required by DEA regulations, (4) the quantity
and types of hazardous waste materials listed on the manifest matched
those listed on the Certificates of Disposal, (5) the teams of vendor
personnel that performed cleanups were composed of at least two
individuals, (6) the correct generator of the hazardous waste was properly
listed on the manifest, (7) hazardous materials were transported in
accordance with EPA regulations, (8) the hazardous waste materials were
transported to an EPA-regulated disposal facility within 10 days, (9) invoices
were fully supported, (10) cost estimates approximated the final invoices,
and (11) Certificates of Disposal were received by the DEA within 1 year of
the hazardous waste materials being taken to the EPA-regulated disposal
facility.

      29
           21 U.S.C. § 830 (2006).


                                     - 21 -
Certificates of Disposal Not Provided

      After the hazardous waste materials have been disposed, the DEA
generally requires vendors to obtain a Certificate of Disposal from an
EPA-regulated disposal facility certifying that the hazardous materials were
disposed of properly at the disposal facility.

       During our review, we identified 28 cleanups in our sample (5 percent)
for which the DEA had not received Certificates of Disposal from the vendor.
These cleanups occurred in 2006 and accounted for 12 percent of all
FY 2006 cleanups in our sample. The DEA had obtained Certificates of
Disposal for all the cleanups in our sample occurring in FYs 2007 and 2008.
We noted that after 2007, the DEA made more of an effort to obtain
Certificates of Disposal. We found that the DEA added a contract stipulation
beginning with its FY 2008 contracts that invoices will not be paid unless the
vendor submits a Certificate of Disposal with the final invoice. 30

       The following is an example of the types of waste removed from the
sites for which the vendors did not provide Certificates of Disposal, the
quantities of which were all small enough to be exempt from EPA
regulations:

   •   butane, 600 milliliters;

   •   Coleman fuel, 13 gallons;

   •   acetone, 32 ounces;

   •   muriatic acid, 2 gallons;

   •   sodium hydroxide, 1 pint; and

   •   sodium hydroxide mixed with potassium hydroxide, 1 quart.

       Subsequent to our review, the DEA was able to obtain one of the
Certificates of Disposal from the cleanup vendor. In addition, the DEA was
able to obtain an additional 13 Certificates of Disposal directly from the
EPA-regulated disposal facility that was used by the vendor which did not
renew its option year in FY 2006 due to financial difficulties. As a result, we
found that Certificates of Disposal were not obtained for a total of
14 cleanups.


       30
            Therefore, we are not making a recommendation related to this issue.


                                           - 22 -
       For 11 of the 14 cleanups, Certificates of Disposal were not required by
the DEA in the emergency blanket purchase agreements or purchase orders,
which contradicts the DEA’s Cleanup Program policy of treating the waste
from all cleanups as if it were subject to EPA regulations. DEA officials
stated that it did not require the vendors performing cleanups under the
emergency blanket purchase agreements and purchase orders to treat all
waste as if it was subject to EPA regulations because they could only be
awarded to small businesses, and small businesses are dependent on a
steady cash flow. Therefore, the DEA reduced the vendor requirements to
ensure that the vendors could be paid for cleanups without waiting up to
1 year for the EPA-regulated disposal facility to dispose of the waste and
provide a Certificate of Disposal. The FY 2008 generation of contracts
awarded by the DEA included requirements that a Certificate of Disposal and
final manifest must be provided for all cleanups, which is consistent with the
overall program objectives.

      For the remaining 3 of the 14 cleanups, Certificates of Disposal were
required by the contract with the vendor but were not provided. The vendor
currently under investigation by the OIG was responsible for all three of
these cleanups.

      Additionally, at the initiation of our audit, the DEA provided a list of
1,747 cleanups between 2004 and 2008 for which Certificates of Disposal
were not provided by vendors. The vendor currently under investigation by
the OIG was responsible for 1,132 (65 percent) of the 1,747 Certificates of
Disposal that were not provided. In these cases, the DEA has no assurance
that the hazardous waste materials from these cleanups had been disposed
of properly.

       The DEA has made efforts to obtain the Certificates of Disposal that
were not provided by the vendors. For example, for cleanups performed by
the vendor that did not renew its option under the contract for FY 2006 due
to financial difficulties, the DEA contacted the EPA-regulated disposal facility
used by the vendor directly to obtain the Certificates of Disposal. Since
March 2009, the DEA has obtained 555 (32 percent) of the 1,747 Certificates
of Disposal that were not provided by the cleanup vendor. Of the remaining
1,192 Certificates of Disposal:

   •   1,132 (95 percent) were related to cleanups performed by the vendor
       currently under investigation by the OIG;




                                     - 23 -
   •   42 (4 percent) were related to cleanups performed under the
       emergency blanket purchase agreements and purchase orders, for
       which Certificates of Disposal were generally not required; and

   •   18 (1 percent) were related to cleanups performed by the vendor that
       did not renew its option under the contract for FY 2006 due to financial
       difficulties. 31

Manifests Not Provided

       EPA Regulation 40 C.F.R. § 262 (1980) requires a final manifest for
regulated waste that details the quantity and types of hazardous materials
removed from the clandestine drug laboratory site. The initial manifest is
signed by the law enforcement agency that seized the clandestine drug
laboratory (generating agency), verifying that the vendor removed all the
hazardous waste listed. After the waste has been transported to an
EPA-regulated disposal facility, the disposal facility signs the final manifest,
verifying the hazardous materials seized at the site were received for
disposal. The manifest serves as documentation of the chain of custody for
the hazardous materials from the time the waste is removed from the site
until it is delivered to an EPA-regulated disposal facility for disposal. In
addition, the manifest can be used to verify that all hazardous materials
were transported to an EPA-regulated disposal facility for disposal and that
the types and quantities of waste listed on the invoice submitted to the DEA
are correct.

        During our review, we identified one cleanup in our sample
(0.2 percent), for which the vendor did not provide either an initial manifest
signed by the seizing law enforcement agency or a final manifest signed by
an EPA-regulated disposal facility. In addition, the vendor did not provide a
Certificate of Disposal for this cleanup. As a result, there is no
documentation supporting the quantity and types of hazardous materials
removed from this clandestine drug laboratory site. Further, there is no
evidence that the vendor transported the waste to an EPA-regulated disposal
facility or that the waste was disposed of properly. It should be noted that
the vendor currently under investigation by the OIG Investigations Division
was responsible for this one cleanup for which both the final manifest and
Certificate of Disposal were not provided.




       31
          This vendor was originally missing 29 Certificates of Disposal as of March 2009,
but the DEA has since obtained 11 directly from the EPA-regulated disposal facility.


                                           - 24 -
       We also identified 51 cleanups in our sample (8 percent) for which the
vendor did provide an initial manifest signed by the seizing law enforcement
agency documenting the types and quantities of waste removed from the
site, but a final manifest signed by the EPA-regulated disposal facility was
not provided. Of the 51 cleanups for which a final manifest was not provided
by the cleanup vendor we found the following:

  •   For 35 of the 51 cleanups (69 percent) for which a final manifest was
      not provided, a Certificate of Disposal prepared by an EPA-regulated
      disposal facility was provided. As a result, for these cleanups the DEA
      has assurance that waste removed from the cleanup site was
      transported to a disposal facility and that the waste was disposed of
      properly. According to DEA officials, prior to the FY 2008 generation of
      contracts vendors were only required to provide the initial manifest
      signed by the generating law enforcement agency, and not the final
      manifest signed by the disposal facility. The DEA did not require the
      final manifest because a Certificate of Disposal was required for all
      cleanups. The DEA did not believe at that time that the final manifest
      was necessary because the initial manifest documented the types and
      quantities of waste removed from the cleanup site and the Certificate
      of Disposal documented that the waste was disposed of properly, and
      therefore received, by an EPA-regulated disposal facility.

  •   For 14 of the 51 cleanups (27 percent) for which a final manifest was
      not provided, the DEA was able to obtain the final manifests directly
      from the EPA-regulated disposal facility for the cleanups performed by
      the vendor that did not renew its option year in FY 2006 due to
      financial difficulties. In addition, Certificates of Disposal were also
      obtained from the EPA-regulated disposal facility for these
      14 cleanups. As a result, for these cleanups the DEA now has
      assurance that the waste was received by an EPA-regulated disposal
      facility and disposed of properly.

  •   For the remaining 2 of the 51 cleanups (4 percent) for which a final
      manifest was not provided, a Certificate of Disposal was also not
      provided by the vendor. As a result, for these cleanups there is no
      evidence that the vendor transported the waste to an EPA-regulated
      disposal facility or that the waste was disposed of properly. The
      vendor currently under investigation by the OIG was responsible for
      both cleanups for which both the final manifest and Certificate of
      Disposal were not provided.




                                    - 25 -
Missing or Undocumented Sensitive Access Level Adjudication

       To reduce the risk of the diversion of the chemicals to unauthorized
locations or personnel, the DEA requires all vendor personnel who work with
the hazardous waste chemicals from clandestine laboratory sites to obtain a
Sensitive Access Level adjudication.32 The hazardous waste disposal
contracts also require vendors to have a minimum of four personnel on staff
at all times with a proper Sensitive Access Level adjudication.

      DEA requirements include a provision that the DEA will not pay for the
labor costs associated with cleanup services performed by vendor personnel
who did not have proper Sensitive Access Level adjudications at the time of
the cleanup, or who were not in the process of obtaining one.

      A Sensitive Access Level adjudication determination allows the
applicant access to law enforcement sensitive information, facilities, and
systems. Although the hazardous waste materials seized, packaged, and
disposed of from clandestine laboratories are not classified as law
enforcement sensitive, the DEA still requires this level of access, in addition
to signing a nondisclosure statement. Three contract employees work for
the DEA running preliminary background checks on all vendor personnel
before a full Sensitive Access Level adjudication is approved.

      To assess whether the vendor personnel who performed the cleanups
had the proper Sensitive Access Level adjudication, we selected a sample of
161 individuals who were members of teams of vendor personnel who
performed cleanups included in our sample. We compared the vendor
personnel who performed these cleanups to the DEA’s Background
Investigation database to check whether they had the proper Sensitive
Access Level adjudication.

    In our sample of 161 individuals, we identified 25 (16 percent) who did
not have a proper Sensitive Access Level adjudication at the time of the
cleanup activity. Of the 25 individuals identified without proper Sensitive
Access Level adjudication, we found the following:




       32
          Sensitive Access Level adjudication allows the individual access to DEA Sensitive
information, facilities, and systems only. It is not a security clearance.



                                           - 26 -
    •   The DEA’s Background Investigation database contained no data
        related to 22 individuals.33

    •   The names of three individuals were included in the DEA’s Background
        Investigation database, but there was no information as to whether
        they had the required Sensitive Access Level adjudication.

      The DEA’s policy is to not pay labor costs for any vendor cleanup
personnel without the proper Sensitive Access Level adjudications. The DEA
issued a memorandum to all cleanup vendors on December 31, 2007,
stating that it will not pay the labor costs associated with any personnel who
performed cleanups who do not have a proper Sensitive Access Level
adjudication or who are not in the process of obtaining one.

      We found that for 2 of the 25 individuals noted in our review, the DEA
had identified the individuals as lacking a proper Sensitive Access Level
adjudication and the DEA correctly refused payment of the labor costs. For
the remaining 23 individuals, the DEA did not withhold payment. However,
the 23 cleanups for which the DEA paid the labor costs associated with
vendor personnel who did not have a Sensitive Access Level adjudication
occurred prior to December 31, 2007. As a result, there are no questioned
costs associated with this finding.

      Because the DEA is not the vendors’ only customer, all vendor
personnel are not required to obtain Sensitive Access Level adjudication.
Only vendor personnel who perform cleanups on behalf of the DEA are
required to obtain a proper Sensitive Access Level adjudication. The DEA’s
policy is to ensure that vendors have an adequate number of employees with
proper Sensitive Access Level adjudications by stipulating in the vendor’s
contract that the vendor should have, at a minimum, four cleared employees
on staff at all times. However, untimely granting of Sensitive Access Level
adjudications and vendor employee turnover sometimes results in a vendor
temporarily having an inadequate number of cleared staff to perform
hazardous waste cleanups on behalf of the DEA.




        33
           The DEA’s Background Investigation database maintains the progress of vendor
employees being granted Sensitive Access Level adjudications, from the initial request until
an adjudication is received or denied. When the database contains no data related to an
individual, there is no indication the individual ever began the process to receive a Sensitive
Access Level adjudication, or that an adjudication was subsequently received or denied.


                                            - 27 -
Conflicting Time Requirements

       We also noted a separate issue related to Certificates of Disposal
resulting from conflicting EPA regulations and DEA requirements. EPA
regulations require that disposal facilities dispose of the hazardous waste
materials received from vendors within 1 year. However, starting with the
FY 2008 hazardous waste removal and disposal contracts, the DEA requires
vendors to submit all final paperwork and the final invoice within 6 months
of the cleanup to ensure proper budgeting and allocation of cleanup funding.
Vendors cannot always obtain Certificates of Disposal from the facilities to
submit within the DEA’s 6-month contract deadline because the facilities are
in compliance with EPA regulations so long as they dispose of the waste
within 1 year. In some instances, therefore, the final invoices with full
documentation cannot be submitted timely to DEA. For example, according
to DEA officials, most of the DEA’s cleanup vendors are small businesses,
and disposal facilities often postpone disposing of hazardous waste materials
from small businesses as long as possible, giving priority to their larger
customers first.

        Currently the DEA contracts only with the hazardous waste removal
companies, and not with the EPA-regulated disposal facilities. However
during our review, DEA officials informed us that the DEA is considering
awarding separate contracts for the disposal of the waste. If this occurred,
the DEA could contract directly with the EPA-regulated disposal facilities for
disposal. The cleanup vendors would then be required to use one of the DEA
contracted disposal facilities to dispose of the hazardous waste materials
removed from the cleanup sites. Contracting with the EPA-regulated
disposal facilities directly would allow the DEA additional controls over the
amount of time allotted for disposal facilities to dispose of the hazardous
waste materials. This, in turn, would allow the vendors performing the
cleanup to submit final invoices timely, without having to wait up to 1 year
for a Certificate of Disposal to be provided by the EPA-regulated disposal
facility. The DEA specifically required its vendors to provide Certificates of
Disposal within 6 months rather than the 1-year period allotted to the
EPA-regulated disposal facilities, to ensure that its vendors use disposal
facilities that are willing to dispose of the hazardous waste materials more
quickly. Contracting separately with the EPA-regulated disposal facilities
would provide an additional incentive for the disposal facilities to provide the
Certificate of Disposal to the DEA timely, as it would not receive payment
until the Certificate of Disposal was submitted.




                                     - 28 -
DEA’s Perspective

      DEA officials attribute most of the deficiencies noted in our report to
the fact that during the majority of the period covered by our audit
(FYs 2006 through 2007) the cleanups were performed under emergency
blanket purchase agreements and purchase orders. As stated previously, in
FYs 2005 and 2006, the two major cleanup contracts that covered most of
the United States were not renewed. As a result, the DEA had to rely on
emergency blanket purchase agreements and purchase orders to continue
the needed cleanup services until new contracts were solicited and awarded
in FY 2008.

       The DEA did not require the vendors performing cleanups under the
emergency blanket purchase agreements and purchase orders to treat all
hazardous waste materials as if it was subject to EPA regulations in
contradiction to the Cleanup Program objectives. As a result, the emergency
blanket purchase agreements and purchase orders that were awarded during
this period did not allow for the same level of control as the prior contracts.
For example, Certificates of Disposal and final manifests requiring the
signature of the disposal facility were only required for cleanups that were
subject to EPA regulations despite the fact that the majority of DEA funded
clandestine drug laboratory cleanups are exempt from EPA regulations. DEA
officials stated that it did not require the vendors performing cleanups under
the emergency blanket purchase agreements and purchase orders to treat
all waste as if it was subject to EPA regulations because blanket purchase
agreements could only be awarded to small businesses, and small
businesses are dependent on a steady cash flow. Therefore, the DEA
reduced the vendor requirements to ensure that the vendors could be paid
for cleanups without waiting up to 1 year for the disposal facility to dispose
of the waste and provide a Certificate of Disposal.

      In our judgment, the DEA at a minimum should have required these
vendors to provide a final manifest signed by the disposal facility to
document that the hazardous waste materials were delivered for proper
disposal. This would have provided the DEA assurance that the hazardous
waste materials were in fact transported to an EPA-regulated facility to be
disposed of properly. The FY 2008 generation of contracts awarded by the
DEA included requirements that a Certificate of Disposal and final manifest
signed by the EPA-regulated disposal facility be provided to the DEA by the
vendor prior to the payment of the cleanup, which is consistent with the
overall program objectives.




                                    - 29 -
Other Matters Related to Vendor Cleanups

      We also identified the following instances of non-compliance.

Certificates of Disposal and Manifests Did Not Match

       During our review, we compared the types and quantities of the
hazardous waste materials listed on the manifests to the Certificates of
Disposal, to ensure that all hazardous waste materials removed from the site
were accounted for and disposed by the disposal facility. We identified
two cleanups (0.3 percent) for which the quantity of hazardous materials
seized from the laboratories listed on the manifest did not match the
Certificates of Disposal provided by the EPA-regulated disposal facility. 34

Adequate Number of Personnel in Cleanup Crew

       The DEA’s vendors are responsible for ensuring that its personnel are
properly trained and that they have proper equipment to perform the
cleanup work. According to the Guidelines for the Cleanup of Clandestine
Drug Laboratories (Red Book), only vendor personnel who have received
OSHA, Resource Conservation and Recovery Act, and U.S. Department of
Transportation (DOT) training to perform the services and have proper
equipment to package, transport, and store the waste are permitted to be
employed to perform the services. Proper training includes knowing whether
a Generator EPA Identification Number is required before shipping can occur,
what needs to be included on the manifest, whether land disposal
restrictions apply, and how to package the waste and placard the vehicle for
shipment.

       The DEA’s contracts and blanket purchase agreements generally
require each team of vendor personnel who perform cleanups to include at
least two properly trained individuals to perform the hazardous waste
removal services. Generally, we found that the vendor provided adequately
qualified and sufficient cleanup personnel. However, we identified
seven cleanups (1 percent) for which the cleanup was performed by only one
individual, in violation of the contract or blanket purchase agreement.35




      34
           Neither of these two cleanups occurred during FY 2008.
      35
         We also identified one cleanup for which the vendor personnel who performed the
cleanup were not listed.



                                          - 30 -
Incorrect Generator

      When a state or local law enforcement agency seizes a clandestine
drug laboratory, the state or local agency becomes, according to EPA
regulations, the “generator” of the hazardous waste, even if the seizing
agency requests the DEA’s assistance in removing the hazardous waste from
the clandestine drug laboratory site.36 The generator is responsible for
ensuring compliance with applicable federal laws and regulations.37 It is
important that the manifest lists the correct generator of the hazardous
waste because the generator is ultimately legally responsible for ensuring
that the hazardous waste materials are disposed of properly.

       We noted 27 cleanups (4 percent) in which the manifests incorrectly
listed the DEA as the generator of the hazardous waste rather than the state
or local law enforcement agency that made the seizure.38 We also noted
three cleanups (0.5 percent) in which the manifests did not list a generator,
three cleanups (0.5 percent) in which the manifests incorrectly listed the
generator as an unknown drug laboratory, and two cleanups (0.3 percent) in
which the manifests incorrectly listed the generator of the hazardous waste
as the vendor.

Other Data Related to Vendor Performance

      As discussed in prior sections, we noted some deficiencies related to
the DEA’s oversight of the Clandestine Drug Laboratory Cleanup Program.
However, as discussed below, based on our review of the 606 cleanups, we
found other areas where the vendors complied with the program laws,
regulations, and guidelines.




       36
          The EPA Regulation 40 C.F.R. § 260.10 (1980), defines the generator of a site’s
hazardous waste as the agency which “first caused the waste to be subject to regulation.”
As a result, the act of a law enforcement agency seizing a clandestine drug laboratory
causes any hazardous chemical to be subject to regulation, and therefore, the law
enforcement agency becomes the generator of the chemicals seized at the site.
       37
          Applicable federal laws and regulations include the: (1) Resource Conservation
and Recovery Act; (2) Comprehensive Environmental Response, Compensation and Liability
Act; (3) Hazardous Materials Transportation Act; and (4) Occupational Safety and Health
Act.
       38
            We also noted two cleanups for which the generator listed was illegible.



                                            - 31 -
Waste Not Transported to the Disposal Facility Timely

       EPA regulations require hazardous waste transporters who operate a
transfer facility to transport hazardous waste removed from clandestine drug
laboratory cleanup sites to an EPA-regulated disposal facility within
10 days.39 Hazardous waste generators must ensure the hazardous waste is
received by a disposal facility within 45 or 60 days. 40 Vendors are required
to use a disposal facility that has been authorized by the EPA and must
identify the disposal facility before its contract can be signed. Vendors also
must give a 30-day notice to the DEA prior to changing disposal facilities.
The EPA regulations are intended to decrease the possibility for the diversion
of the hazardous waste materials for manufacture of illegal drugs and
environmental contamination by requiring that the materials are transported
to an authorized disposal facility in a timely manner. Although most DEA
funded clandestine drug laboratory cleanups are exempt from EPA
regulations, the DEA has recently added requirements to its contracts and
blanket purchase agreements that require vendors to transport the
hazardous waste materials to the disposal facility within 10 days. The DEA
stated that the purpose of this requirement was to ensure that the waste
moves through the disposal process and is not being held up by the cleanup
vendors, because the generator of the waste is responsible for the waste
until it is disposed of properly.

      Although the DEA’s requirement was not in place during the period
covered by our audit, we identified 374 cleanups in our sample (62 percent)
that, according to the manifests, the vendor did not transport the hazardous
material to an EPA-regulated disposal facility within 10 days. According to
these certificates, the waste was not transported until between 11 and
368 days after the cleanup, with an average of 35 days, as shown in
Chart 4.




      39
           40 C.F.R. § 263.12 (1980).
      40
           40 C.F.R. § 262.42 (1980).


                                        - 32 -
                           CHART 4
    TIME PERIODS FOR CLEANUP WASTE TO BE TRANSPORTED TO
                      DISPOSAL FACILITY

  140
        126
  120
              101
  100

   80

   60
                    44
                         36
   40
                              26
                                   16     13
   20
                                               1   2   3   5             1
    0




Source: Drug Enforcement Administration

      We also identified 18 cleanups for which the manifest was not dated
and 2 cleanups for which the date on the manifest was illegible. As a result,
we could not determine if the waste for those 20 cleanups was transported
to an EPA-regulated disposal facility within 10 days as required by DEA
policy. Chart 5 illustrates these related findings broken down as a
percentage of the sample as a whole.




                                          - 33 -
                            CHART 5
           BREAKDOWN OF CLEANUP WASTE TRANSPORTED
              TO DISPOSAL FACILITY WITHIN 10 DAYS
                        FYS 2006 – 2008

             400          374
             350
             300
             250
                                             212
             200
             150
             100
              50                                                18
                                                                                   2
               0
                   Not within 10 days   Within 10 days   Undated Manifest Illegible Manifest
                                                                                 Date

           Source: Drug Enforcement Administration

Invoice Approvals

      Prior to the payment of an invoice, the DEA requires the invoice to
receive both a DEA Approval for Payment, and a DEA Approval for Receipt of
Goods and Services. Such approvals help ensure invoices are not
mistakenly paid before they have been fully reviewed for compliance with all
contract requirements. During our review of the 606 cleanups and related
invoices, we found no instances of non-compliance related to this
requirement.

Cost Estimates Compared To Final Invoice Amounts

       We reviewed the cost estimates and compared those amounts to the
final invoiced amounts to determine if any major discrepancies existed
between the dollar amounts. We did not find any major discrepancies
between the cost estimates and the final invoiced amounts.

Final Certificate of Disposal Date within 1 Year

     Disposal facilities are required to dispose of the hazardous waste
materials within 1 year upon receipt of the materials from the DEA cleanup
vendors. During our review of the 606 cleanups and related invoices, we did


                                             - 34 -
not identify any instances where the disposal facility did not dispose of the
materials within 1 year. However, our review was limited to only those
cleanups in our sample of 606 that included a valid Certificate of Disposal,
and a signed and dated manifest. As noted previously, we identified
57 cleanups where one of these documents was not provided, and we were
therefore unable to test compliance for those cleanups.

Recommendations

     As a result of the findings identified in this report, we make six
recommendations to strengthen the DEA’s oversight of the Clandestine Drug
Laboratory Cleanup Program.

      We recommend that the DEA:

1.    Ensure that final manifests are submitted with vendor invoices and
      that invoices are not paid until a final manifest is received.

2.    Ensure that all final manifests are compared with Certificates of
      Disposal to determine if all hazardous waste materials were disposed
      of properly.

3.    Ensure that vendor cleanup personnel have the required Sensitive
      Access Level adjudication or are in the process of obtaining one before
      being allowed to perform the hazardous waste cleanup services and
      that labor costs are not paid for personnel performing cleanups without
      required Sensitive Access Level adjudications.

4.    Ensure that cleanups are performed by a minimum of two properly
      trained vendor personnel.

5.    Ensure that vendors list the correct generators on the manifests.

6.    Analyze the option of contracting separately with the EPA-regulated
      disposal facilities in order to resolve the conflicting time requirements
      for vendor submission of final invoices and disposal facility submission
      of Certificates of Disposal.




                                    - 35 -
II.   PROGRAM MANAGEMENT FUNDING

      The DEA has significantly reduced the average cost per cleanup
      of a clandestine drug laboratory site from $3,600 in FY 2007 to
      $2,200 in FY 2009. The DEA has also created the Authorized
      Central Storage Container Program, which allows trained state
      and local law enforcement staff to remove hazardous waste
      materials from small clandestine drug laboratories and store the
      waste until it is picked up and disposed of by a cleanup vendor.
      This initiative has resulted in a cost savings to the DEA of over
      $4.2 million from FYs 2006 through 2008 because the vendor’s
      labor costs for multiple cleanup sites is reduced by allowing the
      vendor to pickup and remove the hazardous waste from the
      multiple sites at the central storage location. This has resulted
      in cost savings of over $4.2 million, which is in addition to the
      savings from the decreasing average cost per cleanup.

Hazardous Waste Cleanup and Disposal Contracts

       The first DEA Hazardous Waste Cleanup and Disposal Contracts were
awarded in FY 1991. The DEA established 10 geographic contract areas for
the first award of contracts. The open contract competition resulted in the
award of a 2-year contract to 1 company for all 10 contract areas.

      In FY 1993, the second generation of contracts was awarded to eight
emergency response companies for a 5-year period. Because contract
revisions eliminated hazardous waste storage as a separate billable item,
vendors could no longer increase billings by storing the hazardous waste
rather than transporting it to an EPA-regulated disposal facility immediately.
This resulted in a significant reduction in the average cost per cleanup. In
addition, in FY 1993 the number of contract areas nearly tripled to
27 regions. This increase addressed the concern of Special Agents that the
time periods for vendors to respond to cleanup sites and remove the waste
(response times) were too long. The DEA’s preferred response times range
from 1 to 3 hours. 41 However, certain geographic areas were reporting
16 to 30 hour response times, during which state and local law enforcement
were required to stay on-site waiting for cleanup crews to arrive. Although
vendor response times continued to be an issue, the average response times
improved.



      41
          Generally, the contracts and blanket purchase agreements allow vendors 1 hour
response time for every 50 miles of travel required. Contracts are typically awarded to
vendors that can arrive at a clandestine drug laboratory within 1 to 3 hours.


                                         - 36 -
      The third generation of contracts, again in place for 5 years, was
awarded to 10 emergency response vendors in FY 1998. They provided
service in 29 contract areas, adding Puerto Rico and splitting Nevada into
2 contract areas. Average cleanup costs and response times continued to
improve.

      The fourth generation of contracts was also intended to last for a
5-year period beginning in FY 2003. There were several major changes to
these contracts, including the expansion of the number of contract areas to
44 regions in an attempt to further reduce the response times and minimize
the Special Agents’ time on-site. Other cost savings measures were
included, such as requiring vendors to have response facilities inside the
contract areas and only allowing billing from the closest response facility, as
well as the introduction of electronic invoicing that reduced the amount of
data entry required. These measures resulted in another decrease in the
average cost of cleanup.

      In FY 2008, new contracts were awarded for most geographic areas.
The new generation of contracts allowed the DEA to return to a normal state
of operations, which has resulted in better overall program management and
reduced cleanup costs as discussed in the following section.

Cleanup Costs

      The DEA significantly reduced the average cost per cleanup of a
clandestine drug laboratory site from $3,600 in FY 2007 to $2,200 in
FY 2009. Between FY 2003 and FY 2008 the average cost per cleanup has
varied between $1,900 and $3,600 as shown in Chart 6.




                                     - 37 -
                                                       CHART 6
                                        AVERAGE COST PER LABORATORY CLEANUP
                                                   FYS 1991 – 2009

                             $18,000

                             $16,000

                             $14,000
  Average Cost Per Cleanup




                             $12,000

                             $10,000

                              $8,000

                              $6,000

                              $4,000

                              $2,000

                                 $0
                                       91 92 93 94 95 96 97 98 99 00 01 02 03 04 05 06 07 08 09
                                                               Fiscal Year

Source: Drug Enforcement Administration

       The various contract modifications and improvements implemented by
the DEA resulted in significant cost savings. The number of cleanups for the
first generation of contracts, awarded in FY 1991, was relatively small. As a
result, the average cost per cleanup was about $17,000. Charging for
storage of the hazardous waste materials was allowed at the time, but was
soon identified as a significant cause of elevated prices.

      As stated previously, with the advent of the second generation
contracts beginning in FY 1993, the DEA did not allow billings for storage of
the hazardous waste. As a result, vendors could no longer increase billings
by storing the hazardous waste rather than transporting it to an
EPA-regulated disposal facility timely. Bids and billing under this contract
required the vendor to build in storage costs that might occur into the
disposal costs for any container of waste. The average cost per cleanup
dropped to about $5,500. Additional revisions in the third generation
contracts, such as better geographic divisions in the contract areas, resulted



                                                           - 38 -
in a further decrease of the average cost per cleanup to less than $3,500.
The contract awarded in FY 2003 further reduced the costs to below $2,000.

      As shown in Chart 6, the average cost per cleanup increased from
$2,000 in FY 2005 to $3,600 in FY 2007 due to the loss of the DEA’s two
major vendors and subsequent issuance of emergency blanket purchase
agreements and purchase orders to ensure coverage across the United
States. However, costs started to decrease again in FY 2008, to an average
of $3,000 per clean up with the award of new contracts.

      Costs decreased even further in FY 2009, down to an average of
$2,200 per cleanup. According to DEA officials, the major factor related to
the increased cleanup costs in FYs 2006 and 2007 was the loss of the two
major vendors that provided coverage across most of the United States, and
the DEA was forced into relying on emergency blanket purchase agreements
and purchase orders to ensure continued coverage across the United States.
As a result, there was no opportunity for competitive bids, as coverage was
required immediately. Reverting back to contracts in FY 2008, as opposed
to emergency purchase agreements, decreased the average cost per cleanup
because the DEA was able to negotiate lower contract prices than the prices
obtained under emergency blanket purchase agreements.

      In addition, as discussed below, the Authorized Central Storage
Container Program, implemented in FY 2004, has reduced the average cost
for those types of cleanups to less than $500.

Authorized Central Storage Container Program

       The Authorized Central Storage Container Program allows state and
local law enforcement officers to perform the removal of chemicals from
small laboratories, and temporarily store the chemicals in a safe and secure
location pending final removal by a DEA vendor and proper final disposal at
the DEA’s expense. The Authorized Central Storage Container Program is
intended for smaller sites, such as a clandestine drug laboratory in the trunk
of an automobile. The hazardous waste may be temporarily stored for no
more than 1 week. The temporary storage facilities must have:

   •   a steel outer-shell with a corrosion resistant finish;

   •   a static grounding system, which consists of 1 exterior grounding
       connection with a 10 foot long copper coated steel grounding rod,
       copper strap, and grounding lugs;




                                      - 39 -
  •   passive gravity air flow vents, consisting of 2-hour fire rated dampers
      with louvers and screens;

  •   2-hour fire rated walls, door, and roof;

  •   a leak proof secondary containment sump with galvanized steel floor
      grating;

  •   one weatherproof single phase electrical load center on the exterior
      wall; and

  •   one explosion proof incandescent light fixture within the interior of the
      facility.

       In FY 2004, Kentucky, Oklahoma, Nebraska, and Alabama became the
first states to establish an agreement with the DEA to authorize use of an
Authorized Central Storage Container Program. In FY 2007, the Authorized
Central Storage Container Program was expanded to also include Illinois and
Indiana.

       Temporarily storing the waste allows officers to expedite the removal
of seized chemicals by eliminating the wait time for vendors to arrive
on-site. The Authorized Central Storage Container Program also reduces
costs because the DEA vendors can pick up at one time the hazardous waste
that law enforcement officers have collected from several sites.

      The Authorized Central Storage Container Program has resulted in cost
savings to the DEA of over $4.2 million from FYs 2006 through 2008 when
compared to what the costs would have been for removal of the waste from
the cleanup site. The DEA is considering expanding the Authorized Central
Storage Container Program beyond the six states in which it currently
operates. We believe such an expansion is appropriate.

Conclusion

      We found that the DEA has reduced the average cost per cleanup of a
clandestine drug laboratory site. While the costs increases in FY 2006, this
was due to the loss of the two major vendors which provided coverage
across most of the United States, and the DEA was forced into relying on
emergency blanket purchase agreements and purchase orders to ensure
continued coverage across the United States. As a result, there was no
opportunity for competitive bids, as coverage was required immediately. In
FY 2008 the DEA again obtained competitive bids and ensure before
awarding contracts that vendors were fully capable of performing the


                                    - 40 -
services through pre-award inspections. The average cost per cleanup has
decreased in both FY 2008 and 2009. The DEA has also created the new
cost saving Authorized Central Storage Container Program, which has
resulted in additional savings to the DEA of over $4.2 million from
FYs 2006 through 2008.




                                  - 41 -
This page intentionally left blank.




              - 42 -
              STATEMENT ON INTERNAL CONTROLS

      As required by the Government Auditing Standards we tested as
appropriate, internal controls significant within the context of our audit
objectives. A deficiency in an internal control exists when the design or
operation of a control does not allow management or employees, in the
normal course of performing their assigned functions, to timely prevent or
detect: (1) impairments to the effectiveness and efficiency of operations,
(2) misstatements in financial or performance information, or (3) violations
of laws and regulations. Our evaluation of the DEA’s internal controls was
not made for the purpose of providing assurance on its internal control
structure as a whole. The DEA’s management is responsible for the
establishment and maintenance of internal controls.

      Through our audit testing, we did not identify any deficiencies in the
DEA’s internal controls that are significant within the context of the audit
objectives and based upon the audit work performed that we believe would
affect the DEA’s ability to effectively and efficiently operate, to correctly
state financial and performance information, and to ensure compliance with
laws, regulations, and other applicable requirements.

      Because we are not expressing an opinion on the DEA’s internal
control structure as a whole, this statement is intended solely for the
information and use of the auditee. This restriction is not intended to limit
the distribution of this report, which is a matter of public record.




                                    - 43 -
This page intentionally left blank.




              - 44 -
                STATEMENT ON COMPLIANCE WITH
                    LAWS AND REGULATIONS

      As required by the Government Auditing Standards we tested, as
appropriate given our audit scope and objectives, selected transactions,
records, procedures, and practices, to obtain reasonable assurance that the
DEA’s management complied with federal laws and regulations, for which
noncompliance, in our judgment, could have a material effect on the results
of our audit. The DEA’s management is responsible for ensuring compliance
with federal laws and regulations applicable to the Cleanup Program. In
planning our audit, we identified the following laws and regulations that
concerned the operations of the auditee and that were significant within the
context of the audit objectives:

        •   The Occupational Safety and Health Act of 1970 – regulates safety
            conditions in the workplace. 29 U.S.C. § 15 (1970).
        •   The Hazardous Materials Transportation Act of 1975 – Regulates
            packaging, marking, labeling, and transportation of hazardous
            materials, including hazardous wastes. 40 U.S.C. § 1811 (1975).
        •   The Resource Conservation and Recovery Act of 1976 – Defining
            the Generator of Hazardous Waste as the agency who first caused
            the hazardous waste to be subject to regulation. 42 U.S.C. § 6901
            (1976).
        •   The Comprehensive Environmental Response, Compensation and
            Liability Act of 1980 – Governs emergency response for release of
            hazardous substances into the environment. 42 U.S.C. § 9601
            (1980).


       Our audit included examining, on a test basis, the DEA’s compliance
with the aforementioned laws and regulations that could have a material
effect on the DEA’s operations, through interviewing auditee personnel,
analyzing data, assessing internal control procedures, and examining
procedural practices.

     Nothing came to our attention that caused us to believe that the DEA
was not in compliance with the aforementioned laws and regulations.




                                        - 45 -
This page intentionally left blank.




              - 46 -
                                                               APPENDIX I

              OBJECTIVES, SCOPE, AND METHODOLOGY

      The objectives of the audit were to: (1) determine whether the DEA
ensures that clandestine drug laboratory cleanups performed by its vendors
comply with applicable laws, regulations, guidelines and contract
requirements; and (2) evaluate the DEA’s overall effectiveness in
administering and managing the Clandestine Drug Laboratory Cleanup
Program funding.

Scope and Methodology Section

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

      To determine whether the DEA ensures that clandestine drug
laboratory cleanups performed by its vendors comply with applicable laws,
regulations, guidelines, and contract requirements, as well as to ascertain
the DEA’s overall effectiveness in administering and managing the Cleanup
Program funding, we reviewed the DEA’s Cleanup Program to determine
whether cleanup activities were in accordance with:

•   the DEA’s Red Book,

•   the Resource Conservation and Recovery Act,42

•   EPA regulations,

•   the Code of Federal Regulations involving contracts, and

•   the OSHA and DOT regulations.

     We reviewed all of the DEA’s prior inspections reports related to the
Cleanup Program from FYs 2004 through 2009, as well as all previous
complaint and inquiry reports from FYs 2006 through 2008, to identify any


      42
           42 U.S.C. § 6901 (1976).


                                      - 47 -
areas where the DEA’s effectiveness in administering the Cleanup Program
would be suspect.

       Additionally, we selected a random sample of 606 cleanups, which had
invoices submitted for FYs 2006 through 2008. In order to obtain an
effective sample, we have employed multistage stratified statistical sample
design covering all 3 years, different levels of cleanup activities, and all
vendors. The universe considered for sample selection consisted of
11,781 cleanups with a total invoiced amount of $38,931,235. The
11,781 cleanups were arrived at after excluding 234 cleanups with no
invoices. The cleanups spanned a 3-year period, FY 2006, FY 2007,
FY 2008, and to 49 vendors, considering the purchase orders as one, and
blanket purchase agreements as another.

      The descriptive analysis of the data elicited that the number of
cleanups per vendor, the total invoiced amount per vendor, and the average
invoiced amount per cleanup varied widely. The tests employed on each
selected item from the sample are all attribute in nature. The assumptions
made for sample design include the confidence level at 95 percent, precision
at 4 percent, and 0.5 p value. In order to obtain efficient estimators of the
parameters, multistage stratified sample design was selected to reduce the
variance from the factors such as the year, vendor, the level of activity, and
invoiced amount. The stage one strata contained combination of the year
and group of vendors and the stage two strata contained vendors within
each of the stage one stratum. Proportional to size sample allocation
method was employed in each stage. The selected stratified sample design,
using the above assumptions, yielded a sample size of 606 cleanups from
the universe of 11,781 cleanups. We have selected a random probability
sample within each of the strata so that the resulting sample is statistically
valid and efficient. However, the sample cannot be projected to the
intended population.

       We reviewed each sample invoice to determine whether:

   •   the invoice was fully supported;

   •   the DEA’s acceptance of goods and services was properly documented;

   •   the DEA’s approval for payment was properly documented;

   •   a cost estimate was submitted within 5 days;

   •   the final invoice was submitted within 180 days;



                                    - 48 -
•   any major differences between cost estimates and actual invoiced
    amounts were adequately explained;

•   the invoiced amounts were allowable in accordance with the respective
    contract, blanket purchase agreement, or purchase order;

•   a manifest was submitted documenting the chain of custody for the
    hazardous materials from the time the waste was removed until it was
    delivered to an EPA-regulated disposal facility;

•   the vendor transported all hazardous materials to an EPA-regulated
    disposal facility within 10 days;

•   a Certificate of Disposal was submitted to verify the hazardous
    materials were disposed of properly;

•   the quantity of materials on the Certificate of Disposal matched the
    manifests and invoices;

•   the Certificate of Disposal was submitted concurrent with, or prior to,
    the final invoice; and

•   the final Certificate of Disposal date was within 1 year of the cleanup
    completed date.




                                  - 49 -
This page intentionally left blank.




              - 50 -
                                                                                    APPENDIX II


                                                  U. S. Department of Justice
                                                  DmS Enforcement Administration




www.dea.gov                                       Washington, D.C. 2053 7



                                                    JUN 1 4 2010
MEMORANDUM
               David M. Sheeren
               Regional Audit Manager
                Denver Regional Audit Office
               Office of the Inspector eneral

               Kevin M. Foley
               Acting Deputy Chie
               Office of Inspections

SUBJECT:       DEA's Response to the DIG's Draft Report: The Drug Enforcemenl Administration 's
               Clandesline Drug Laboralory Cleanup Program

   The Drug Enforcement Administration (DEA) has reviewed the Department of Justice (DOJ),
Office of the Inspector General's (OIG) draft audit report, entitled: The Dnlg Enforcement
Administration's Clandestine Drug Laboratory Cleanup Program. DEA acknowledges OIG in
conducting a review of DE A 's efforts to focus on the removal and disposal of chemicals,
contaminated apparatus, and equipment used to manufacture iUegal drugs. DEA is committed to
dismantling clandestine drug laboratories that present seri ous environmental concerns. DEA concurs
with recommendations 1 - 6 and will take the necessary steps 10 implemenl.

    DEA appreciates that the draft audit report indicates the DEA imp lemented additional controls
during fiscal year (FY) 2008, to ensure that hazardous materials are accounted for and disposed
properly. The OrG reports that DEA added to its contracts stipulations that invoices will not be paid
unless the vendor provides the appropriate documentation. The OIG also mentions that DEA issued
a memorandum to all cleanup vendors ofthe additional constraints to ensure that contracts are being
adhered to. As a result of the additional internal controls pUI into place by DEA, O IG noted that
during the scope of the review, there were no instances where vendors fai led to provide the
appropriate documentation for cleanups during FYs 2007 and 2008. OIG further noted that DEA
implemented several cost saving measures to reduce cle~up costs.

     While DEA remains committed to process improvements and will work to implement the
recommendations made by the OIG, the DEA believes that improvements implemented in March
2008, through contracts managcd by the Clandestine Drug Laboratory Cleanup Program, addressed
the OIG 's concerns.




                                           - 51 ­
David M. Sheeren, Regional Audit Manager                                                        Page 2

DEA provides the fol lowing response to the OIG's recommendations:

   Recommendation 1. Ensure that final manifests are submitted with vendor invoices and
   that invoices are not paid until a final manifest is received.

    DEA concurs with the recommendation. The Office of Forensic Sciences, Hazardous Waste
    Disposal Section (SFH) has alrt::ady taken steps by implementing this recommendation in the
    contracts that were awarded in FY 2008. The contracts, section G.2.2 specifically states, "the
   folLowing completed documellts shaJl be submitted, together with Attachment J./ 0, as part ofthe
    invoice package: C2.2.S. afillal manifest, signed by a permitted Treatment, Storage. and
    Disposal Facility (TSDF) . .. The final manifest and vendor invoices are currently reconciled by
    the DEA Hazardous Waste Disposal Section, Financial Unit (SFHF), upon receipt of the invoice
    package. Detailed procedures to ensure compliance with the recommendation will be
    incorporated into the revised SFH Standard Operating Procedures.

   Recommendation 2. Ensure tbat all final manifests are compared with Certificates of
   Disposal to determine if all hazardous waste materials were disposed of properly.

   DEA concurs with the recommendation. SFH has already taken steps by implementing this
   recommendation in the contracts that were awarded in FY 2008. The contract, section C.6. t 4.1
   states, " The Certificate ofDestruction (CD) shall include: .. . (5) All absolute identification
   method for linking the applicable CD 10 the initial Unifor", Hazardous Waste Manifest or Bill of
   liuJing (i.e., manifest number alld line item number). " This infonnation is currently reconci led
   by the SFHF unit, upon receipt of the invoice package. Detailed procedures to ensure
   comp liance with the recommendation will be incorporated into the revised SFH Standard
   Operating Procedures.

   Recommendation 3. Ensure tbat vendor cleanup personnel have the required Sensitive
   Access Level adjudication or are in the process of ohtaining one before being allowed to
   perform tbe bazardous waste cleanup services aDd that the labor costs are not paid for
   personnel performing cleanups without required Sensitive Access Level adjudications.

   DEA concurs with the recommendation. SFH has already taken steps by implementing this
   recommendation in the contracts that were awarded in FY 2008. In the contract, section I, it
   states that, "The Contractor shall provide DEA with completed security applications for any
  personnel providing hazardous waste cleanup and lJisposal services inc/ut/ing owners and
   officers of the company. nO later Iha1l 30 (lays after receipt of the application alld instructions
  from DEA. Personnel. whose background indicates unfavorable information, as determined by
   the DEA, shall not work 011 any DEAjob. DEA may not be billedfor the services of any
   employee who has beellfound ineligible or IIllsuitable to work On DEAjobs. " Furthennore,
   Section I.B .6 states, "A cOl/tractor 's employee(s) shaUnot be assigned to pelfo rm services for
   DEA IIl1lif the contractor has been notified ill writing by the COlltracting Officer's Technical
  Representative (COTR)/Task Monitor (TM) that the individual(s) has been approved by the DEA
   Office of Security Programs." This infonnation is currently reconciled by the SFHF unit upon
   receipt of the invoice package. Detailed procedures to ensure compliance with lhe
   recommendation will be incorporated into the revised SFH Standard Operating Procedures.




                                           - 52 ­
David M. Sheeren, Regional Audit Manager                                                        Page 3

   Recommendation 4. Ensure tbat cleanups are perform ed by a minimum of two properly
   train ed vendor personnel.

   DEA concurs with this recommendation. SFH has already taken steps by implementing this
   recommendation in the contracts that were awarded in FY 2008 . Section C.S, of the contract
   states ··Response Crew means .... For safety reasons, a response crew m llSI cOllsist ofalleast
   two personnel of which no more than one imlividual may be billed as a chemist. if necessary. "
   These indivi duals must be trained in accordance with the contract requ irements in Section C. 10,
   which states. "The Contractor shalf utilize only those employees who have had current trajning
   that meets the pertinellt requirements ofOccupafiollal Safety and Health Admillistratjon
   (OSHA), Ellvironmental Proteclion Agency (EPA) . Department a/Transportation (DOT), and
   DEA and any other applicable federal. stale, or local training requirements." This infonnation
   is currently reconci led by the SFHF unit upon receipt of the invoice package. Detailed
   procedures to ensure comp liance wi th the recommendation will be incorporated into the revised
   SFH Standard Operating Procedures.

   Recommendation 5. Ensure that vendors list Ibe correct generators on th e manifests.

   DEA concurs with this recommendation. SFH has already taken steps by implementing this
   recommendation in the contracts that were awarded in FY 2008. Section C.8.1., of the contract
   states, ··Mallifesls prepared at WI authorized removal site sha.ll include: On the left side a/box
   #5. Generalor 's Name and Mailing Address, the .nailing address of the generator. For stale or
   local removal actionsfor which WI "S " Number / I(IS been issued, the Cunlraclor shall use the
   name anti address of the lead. stale or local law enforcelllenl agency. For DEA-only removal
   actions/or whjch an "S" Number has not been issued. bllt/or which a DEA Case Number has
   heen issued, the Contractor shall indicate the following address: COTR: DEA (SFH);
   Washington, D.C. 20537.'· The information is currently reconci led by the SFHF unit upon
   receipt oflhe invoice package. In addition, as per Section C.10 of the contracts, all vendors are
   provided training by DEA during the post-award training conference specifically in the area of
   Uniform Hazardous Waste Manifest requirements. Detailed procedures to ensure compliance
   with the recommendation will be incorporated into the revised SFH Standard Operating
   Procedures.

   Reco mmendation 6. Analyze the option of contracting separately with the EPA-regulated
   disposal facilities In order to resolve the conflicting time requirements for vendor
   submission of final invoices and disposal facility submission of Certificates of Disposal.

   DEA concurs with this recommendation. An analysis by SFH has begun on the current
   statement of work in the hazardous waste disposal contracts. SFH is analyzing the feasibility of
   award ing separate response and disposal contracts by conducting a comprehensive review of the
   entire cleanup process. As part of this evaluation, SFH will review and examine several different
   EPA-permitted TSDFs to determine the applicability, specific procedures and regulatory
   requirements of the clandestine laboratory cleanup program as it relates to their operations. DEA
   will draft a new statement of work and detennine TSDF interest by posting a request for
   infonnation (RFI) through the DEA contracti ng office. The results of the RFI, in conjunction
   with our analysis, will ultimately decide whether the option of contracting separately with EPA
   regulated disposal facilities is feasible.




                                           - 53 ­
David M. Sheeren, Regional Audit Manager                                                  Page 4


    Documentation detailing DEA's efforts to implement each of the recommendations noted in this
report will be provided to the OIG on a quarterly basis, until all corrective actions have been
completed. If you have any questions regarding DEA's response to the O1O's recommendations,
please contact the Audit Liaison Team at (202) 307-8200.




                                         - 54 ­
                                                             APPENDIX III

              OFFICE OF THE INSPECTOR GENERAL
             ANALYSIS AND SUMMARY OF ACTIONS
               NECESSARY TO CLOSE THE REPORT


     The OIG provided a draft of this audit report to the DEA. The DEA
response is incorporated in Appendix II of this final report.

      The DEA states in its response that “while DEA remains committed to
process improvements and will work to implement the recommendations
made by the OIG, the DEA believes that improvements implemented in
March 2008, through contracts managed by the Clandestine Drug Laboratory
Cleanup Program, addressed the OIG’s concerns.” The OIG recognizes in its
report that the DEA has implemented policy changes in 2008 which
improved its Clandestine Drug Laboratory Cleanup Program. However, the
OIG believes that the DEA still needs to take additional steps to improve its
program and to address the OIG’s recommendations. For example, as the
DEA acknowledges in its response to five of the six recommendations, it still
needs to prepare detailed procedures to ensure compliance with the OIG’s
recommendations and to incorporate those procedures into the revised DEA,
Office of Forensic Sciences, Hazardous Waste Disposal Section Standard
Operating Procedures. In addition, as explained in more detail below, in its
response to the sixth recommendation the DEA states that it concurs with
our recommendation to analyze the option of contracting separately with the
EPA-regulated disposal facilities.

     The following provides the OIG analysis of the DEA’s response to each
recommendation and a summary of actions necessary to resolve the report.

Summary of Actions Necessary to Close Report

1.   Resolved. The DEA concurred with our recommendation to ensure
     that final manifests are submitted with vendor invoices and that
     invoices are not paid until a final manifest is received. The DEA stated
     that it has already taken steps to address this concern in the contracts
     that it awarded in FY 2008. The FY 2008 contracts require that a final
     manifest, signed by a permitted transportation, storage, and disposal
     facility, shall be submitted with the final invoice. The DEA stated that
     it also reconciles the final manifest and vendor invoices. The DEA
     plans to prepare detailed written procedures to ensure compliance with
     this recommendation and incorporate those procedures into the



                                   - 55 -
     revised DEA, Office of Forensic Sciences, Hazardous Waste Disposal
     Section Standard Operating Procedures. This recommendation can be
     closed when we receive documentation showing that the DEA has
     prepared and incorporated the detailed procedures to ensure that final
     manifests are submitted with vendor invoices and that invoices are not
     paid until a final manifest is received into the revised DEA, Office of
     Forensic Sciences, Hazardous Waste Disposal Section Standard
     Operating Procedures.

2.   Resolved. The DEA concurred with our recommendation to ensure
     that all final manifests are compared with Certificates of Disposal to
     mine if all hazardous waste materials were disposed of properly into
     the revised DEA determine if all hazardous waste materials were
     disposed of properly. The DEA stated that it has already taken steps
     to address this concern in the contracts that it awarded in FY 2008.
     The FY 2008 contracts require that the Certificate of Disposal include
     an identification method for linking the Certificate of Disposal to the
     final manifest (that is, the manifest number and line item number).
     The DEA stated that it currently reconciles this information upon
     receipt of the invoice package, and that the DEA will prepare detailed
     written procedures to ensure compliance with this recommendation
     and incorporate those procedures into the revised DEA, Office of
     Forensic Sciences, Hazardous Waste Disposal Section Standard
     Operating Procedures. This recommendation can be closed when we
     receive documentation showing that the DEA has prepared and
     incorporated the detailed procedures to ensure that all final manifests
     are compared with Certificates of Disposal to deter, Office of Forensic
     Sciences, Hazardous Waste Disposal Section Standard Operating
     Procedures.

3.   Resolved. The DEA concurred with our recommendation to ensure
     that vendor cleanup personnel have the required Sensitive Access
     Level adjudication or are in the process of obtaining one before being
     allowed to perform the hazardous waste cleanup services and that
     labor costs are not paid for personnel performing cleanups without
     required Sensitive Access Level adjudications. The DEA stated that it
     has already taken steps to address this concern in the contracts that it
     awarded in FY 2008. According to the DEA, the FY 2008 contracts
     require that the contractor provide the DEA with completed security
     applications for any personnel providing hazardous waste cleanup and
     disposal services, including owners and officers of the company, no
     later than 30 days after receipt of the application and instructions from
     the DEA. Contractor personnel whose background indicates
     unfavorable information, as determined by the DEA, shall not work on


                                   - 56 -
     any DEA job. According to the contracts, the DEA may not be billed
     for the services of any employee who has been found ineligible or
     unsuitable to work on DEA jobs. Furthermore, a contractor’s employee
     shall not be assigned to perform services for the DEA until the
     contractor has been notified in writing by the Contracting Officer’s
     Technical Representative Task Monitor that the individual has been
     approved by the DEA Office of Security Programs. The DEA stated
     that it currently reconciles this information upon receipt of the invoice
     package, and that the DEA will prepare and incorporate the detailed
     procedures to ensure compliance with this recommendation into the
     revised DEA, Office of Forensic Sciences, Hazardous Waste Disposal
     Section Standard Operating Procedures. This recommendation can be
     closed when we receive documentation showing that the DEA has
     prepared and incorporated the detailed procedures to ensure that
     vendor cleanup personnel have the required Sensitive Access Level
     adjudication or are in the process of obtaining one before being
     allowed to perform the hazardous waste cleanup services and that
     labor costs are not paid for personnel performing cleanups without
     required Sensitive Access Level adjudications into the revised DEA,
     Office of Forensic Sciences, Hazardous Waste Disposal Section
     Standard Operating Procedures.

4.   Resolved. The DEA concurred with our recommendation to ensure
     that cleanups are performed by a minimum of two properly trained
     vendor personnel. The DEA stated that it has already taken steps to
     address this concern in the contracts that it awarded in FY 2008. The
     FY 2008 contracts require that for safety reasons, a response crew
     must consist of at least two personnel. Further, the DEA stated that
     contracts require that the contractor shall utilize only those employees
     who have had current training that meets the pertinent requirements
     of Occupational Safety and Health Administration (OSHA),
     Environmental Protection Agency (EPA), Department of Transportation
     (DOT), the DEA and any other applicable federal, state, or local
     training requirements. The DEA stated that this information is
     currently reconciled by the DEA upon receipt of the invoice package,
     and that the DEA will prepare and incorporate the detailed procedures
     to ensure compliance with this recommendation into the revised DEA,
     Office of Forensic Sciences, Hazardous Waste Disposal Section
     Standard Operating Procedures. This recommendation can be closed
     when we receive documentation showing that the DEA has prepared
     and incorporated the detailed procedures to ensure that cleanups are
     performed by a minimum of two properly trained vendor personnel
     into the revised DEA, Office of Forensic Sciences, Hazardous Waste
     Disposal Section Standard Operating Procedures.


                                   - 57 -
5.   Resolved. The DEA concurred with our recommendation to ensure
     that vendors list the correct generators on the manifests. The DEA
     stated that it has already taken steps to address this concern in the
     contracts that it awarded in FY 2008. The FY 2008 contracts require
     that manifests prepared at an authorized removal site shall include the
     generator’s name and mailing address. According to the contracts, for
     state or local cleanups, the contractor shall use the name and address
     of the lead state or local law enforcement agency. The DEA stated
     that this information is currently reconciled by the DEA upon receipt of
     the invoice package. In addition, according to the DEA, all vendors are
     provided training by the DEA during the post-award training
     conference specifically in the area of manifest requirements. The DEA
     stated that it will prepare and incorporate the detailed procedures to
     ensure compliance with this recommendation into the revised DEA,
     Office of Forensic Sciences, Hazardous Waste Disposal Section
     Standard Operating Procedures. This recommendation can be closed
     when we receive documentation showing that the DEA has prepared
     and incorporated the detailed procedures to ensure that vendors list
     the correct generators on the manifests into the revised DEA, Office of
     Forensic Sciences, Hazardous Waste Disposal Section Standard
     Operating Procedures.

6.   Resolved. The DEA concurred with our recommendation to analyze
     the option of contracting separately with the EPA-regulated disposal
     facilities in order to resolve the conflicting time requirements for
     vendor submission of final invoices and disposal facility submission of
     Certificates of Disposal. The DEA stated that it has already begun an
     analysis of the feasibility of awarding separate response and disposal
     contracts by conducting a comprehensive review of the entire
     hazardous waste removal process. As part of this evaluation, the DEA
     stated that it will review and examine several different EPA-regulated
     disposal facilities to determine the applicability, specific procedures
     and regulatory requirements of the clandestine laboratory cleanup
     program as it relates to their operations. The DEA also will draft a new
     statement of work and determine disposal facility interest by posting a
     request for information through the DEA contracting office. The result
     of the request for information, in conjunction with the DEA’s analysis,
     will determine whether the DEA considers the option of contracting
     separately with EPA-regulated Disposal Facilities feasible. This
     recommendation can be closed when we receive documentation
     showing that the DEA has analyzed the option of contracting
     separately with the EPA-regulated disposal facilities in order to resolve
     the conflicting time requirements for vendor submission of final
     invoices and disposal facility submission of Certificates of Disposal.


                                   - 58 -
